<html>
<title> - SUSTAINABLE DEVELOPMENT OPPORTUNITIES IN MINING COMMUNITIES</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
      SUSTAINABLE DEVELOPMENT OPPORTUNITIES IN MINING COMMUNITIES

=======================================================================

                           OVERSIGHT HEARING

                               before the

                       SUBCOMMITTEE ON ENERGY AND
                           MINERAL RESOURCES

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                        Thursday, July 28, 2005

                               __________

                           Serial No. 109-27

                               __________

           Printed for the use of the Committee on Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
22-850                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Eni F.H. Faleomavaega, American 
Elton Gallegly, California               Samoa
John J. Duncan, Jr., Tennessee       Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Barbara Cubin, Wyoming               Donna M. Christensen, Virgin 
  Vice Chair                             Islands
George P. Radanovich, California     Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Grace F. Napolitano, California
    Carolina                         Tom Udall, New Mexico
Chris Cannon, Utah                   Raul M. Grijalva, Arizona
John E. Peterson, Pennsylvania       Madeleine Z. Bordallo, Guam
Jim Gibbons, Nevada                  Jim Costa, California
Greg Walden, Oregon                  Charlie Melancon, Louisiana
Thomas G. Tancredo, Colorado         Dan Boren, Oklahoma
J.D. Hayworth, Arizona               George Miller, California
Jeff Flake, Arizona                  Edward J. Markey, Massachusetts
Rick Renzi, Arizona                  Peter A. DeFazio, Oregon
Stevan Pearce, New Mexico            Jay Inslee, Washington
Henry Brown, Jr., South Carolina     Mark Udall, Colorado
Thelma Drake, Virginia               Dennis Cardoza, California
Luis G. Fortuno, Puerto Rico         Stephanie Herseth, South Dakota
Cathy McMorris, Washington
Bobby Jindal, Louisiana
Louie Gohmert, Texas
Marilyn N. Musgrave, Colorado
Vacancy

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON ENERGY AND MINERAL RESOURCES

                     JIM GIBBONS, Nevada, Chairman
           RAUL M. GRIJALVA, Arizona, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
Barbara Cubin, Wyoming                   Samoa
Chris Cannon, Utah                   Solomon P. Ortiz, Texas
John E. Peterson, Pennsylvania       Jim Costa, California
Stevan Pearce, New Mexico            Charlie Melancon, Louisiana
Thelma Drake, Virginia               Dan Boren, Oklahoma
Bobby Jindal, Louisiana              Edward J. Markey, Massachusetts
Louie Gohmert, Texas                 Nick J. Rahall II, West Virginia, 
Richard W. Pombo, California, ex         ex officio
    officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Thursday, July 28, 2005..........................     1

Statement of Members:
    Gibbons, Hon. Jim, a Representative in Congress from the 
      State of Nevada............................................     1
        Prepared statement of....................................     2
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     3
        Prepared statement of....................................     4

Statement of Witnesses:
    Arnold, James R., P.E., Vice-President, Technical Services 
      and Projects, Coeur d'Alene Mines Corporation..............     9
        Prepared statement of....................................    11
    Carpenter, Ann S., Domestic and International Mineral 
      Development Consultant, Women's Mining Coalition...........    22
        Prepared statement of....................................    24
    Harrington, Tom, Assistant Manager, Jefferson Local 
      Development Corporation....................................    14
        Prepared statement of....................................    16
    Jeffress, James, Retired Wildlife Biologist/Private 
      Consultant, Lovelock, Nevada...............................     5
        Prepared statement of....................................     7
    Lee, L. Courtland, Consulting Geologist, Appalachian 
      Gemstones, Boxlee Azalea Farm, Glenn Dale, Maryland........    19
        Prepared statement of....................................    21


  OVERSIGHT HEARING ON THE ``SUSTAINABLE DEVELOPMENT OPPORTUNITIES IN 
                          MINING COMMUNITIES''

                              ----------                              


                        Thursday, July 28, 2005

                     U.S. House of Representatives

              Subcommittee on Energy and Mineral Resources

                         Committee on Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:04 a.m., in 
Room 1334 Longworth House Office Building, Hon. Jim Gibbons 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Gibbons, Pearce, and Grijalva.

STATEMENT OF THE HON. JIM GIBBONS, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF NEVADA

    Mr. Gibbons. The Subcommittee on Energy and Mineral 
Resources will come to order.
    The Committee meets today for an oversight hearing on 
sustainable development opportunities in mining communities, 
and this is Part II.
    The first sustainable development opportunities in mining 
communities hearing was held last fall in Reno, Nevada. During 
that hearing we heard about the developing partnerships between 
mining companies and their host communities in Nevada, as well 
as the opportunities and obstacles for economic development as 
a means of sustainable development opportunities in mining 
communities.
    During today's hearing we will hear about specific projects 
from community and company representatives, one in Nevada and 
one in Montana. Other witnesses will provide an overview of the 
mining industry's evolving sustainable development practices 
and how Federal land management policy could be improved to 
help break the boom-and-bust cycles common in the resource 
industry.
    One question all mining communities face about their long-
term fate is what happens when the mine closes. This question 
brings us to the need for a continuing dialogue on sustainable 
development in mining communities.
    Sustainable development is a multifaceted process that 
strives to integrate economic and social considerations, as 
well as the more traditional environmental considerations, into 
resource management decisions. In mining communities, true 
sustainable development must include an integrated approach to 
mine closure and is fundamental to ensure Western communities 
can maintain their quality of life. True sustainable 
development will provide for the creation of new jobs without 
compromising the integrity of the environment once a resource 
development project is concluded.
    To understand what constitutes real sustainable development 
in mining communities, one must first understand the role of 
the mining industry during the settlement of the West. The 
mining industry was instrumental in providing the original 
economic incentive and rationale for settlement of the West. 
Many of the major urban areas and towns of the West are former 
mining communities. As we all know, the cities like Denver are 
no longer mining towns, but the infrastructure left by the 
mining industry made not only the initial survival of these 
cities possible, but their subsequent development.
    Today, however, rural communities in the West that host 
mining operations do not have the opportunity to choose whether 
or not to use mining-related infrastructure as an economic 
jump-start because of Federal land management policies. Under 
current Federal policy, when a mine operating on Federal land 
reaches mine closure, they are required to remove all 
infrastructure as part of the reclamation process. This means 
that when the mine closes, not only do the jobs leave, but the 
infrastructure that can offer communities the opportunity to 
develop new industries leaves as well. Allowing infrastructure 
to remain in place to be utilized by the community for other 
types of economic activity can help mitigate the effects of 
mine closure in host communities that are affected by the mine 
closure process.
    Current reclamation policy is not the only obstacle facing 
sustainable development in mining communities. Historically, 
the Secretary of the Interior has been charged with managing 
Federal lands for multiple use and sustained yield. The Federal 
Government seems to be more in the business of preservation of 
public land than management. As part of this hearing, I think 
it would be helpful to look at the philosophies of laws, such 
as the Federal Land Policy and Management Act, and how those 
philosophies are impacting sustainable development throughout 
the West.
    [The prepared statement of Mr. Gibbons follows:]

           Statement of The Honorable Jim Gibbons, Chairman, 
              Subcommittee on Energy and Mineral Resources

    The Committee meets today for an oversight hearing to receive 
testimony on ``Sustainable Development Opportunities in Mining 
Communities''.
    At this hearing we will address the developing partnerships between 
mining companies and their host communities, as well as the 
opportunities for and obstacles hindering development as a means of 
sustainable development in mining communities.
    One question all mining communities face about their long-term fate 
is--what happens when the mine closes?
    This question brings us to the need for a continuing dialogue on 
sustainable development in mining communities.
    Sustainable development is a multi-faceted process that strives to 
integrate economic and social considerations, as well as the more 
traditional environmental considerations into resource management 
decisions.
    In mining communities true sustainable development must include an 
integrated approach to mine closure and is fundamental to ensure 
Western communities maintain their quality of life.
    True sustainable development will provide for the creation of new 
jobs without compromising the integrity of the environment once a 
resource development project is concluded.
    To understand what constitutes true sustainable development in 
mining communities, one must first understand the role of the mining 
industry during the settlement of the West.
    The mining industry was instrumental in providing the original 
economic incentive and rationale for the settlement of the West.
    Many of the major urban areas and towns of the West are former 
mining communities.
    As we all know, cities like Denver are no longer mining towns, but 
the infrastructure left by the mining industry made not only the 
initial survival of these cities possible, but their subsequent 
development.
    Today, however, the rural communities in the West that host mining 
operations do not have the opportunity to use mining related 
infrastructure as an economic jumpstart because of Federal land 
management policies.
    Under current federal policy, when a mine operating on federal land 
reaches mine closure they are required to remove all infrastructure as 
part of the reclamation process.
    This means that when the mine closes, not only do the jobs leave, 
but the infrastructure that can offer communities the opportunity to 
develop new industries leaves as well.
    Allowing infrastructure to remain in place to be utilized by the 
community for other types of economic activity can help mitigate the 
effects of mine closure in host communities affected by the mine-
closure process.
    Current reclamation policy is not the only obstacle facing 
sustainable development in mining communities.
    Historically, the Secretary of the Interior has been charged with 
managing federal lands for multiple-use and sustained yield.
    However, the federal government seems to be more in the business of 
preservation of public lands than management.
    As part of this hearing, I think it would be helpful to looks at 
the philosophies of laws such as FLPMA, and how those philosophies are 
impacting sustainable development throughout the West.
    I would like to thank our witnesses for being here today to discuss 
what we can do to keep high paying, family wage jobs in our mining 
communities during and after mine closure.
                                 ______
                                 
    Mr. Gibbons. I want to thank all our witnesses for being 
here today to discuss what we can do to keep high-paying, 
family wage jobs in our mining communities during and after 
mine closure.
    With that, I will turn now to my friend and colleague Raul 
Grijalva for his opening statement. Mr. Grijalva?

   STATEMENT OF THE HON. RAUL GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you so much, Mr. Chairman. Very kind.
    Mr. Chairman, I am also pleased to join you in welcoming 
our panel of witnesses today to discuss sustainable development 
as it relates to mining. I am also pleased that a growing 
number of mining industry leaders are recognizing that 
sustainable development is indeed a good idea. As noted in the 
report entitled, ``Our Common Future,'' published by the World 
Commission on Environment and Development in 1987, it stated: 
Humanity has the ability to make development sustainable, to 
ensure that it meets the needs of the present without 
compromising the ability of future generations to meet their 
own needs.
    All over the West, we see the unfortunate results of mining 
operations that have not taken into account this very basic 
principle of sustainable development in their rush for the gold 
ore, in my State, for the copper. The Environmental Protection 
Agency estimates that mine waste contaminates 40 percent of 
Western headwaters and that cleaning up half a million 
abandoned mines in 32 States may cost $35 billion or more.
    According to Government estimates, the State of Arizona is 
home to approximately 100,000 inactive or abandoned mining 
sites, an estimated 3,000 of which pose an environmental risk. 
The Arizona Department of Environmental Quality has stated: The 
legacy pollutants that remain from active and former mines are 
some of the major pollution sources for Arizona's water bodies.
    Additionally, communities are understandably becoming more 
concerned about the effects of having a mine in their 
neighborhood. For example, Arizonans who live near Ray Copper 
Mine in Pinal County in southern Arizona, about 65 miles east 
of Phoenix, are concerned about the high rate of lung cancer in 
their community. This mine was owned by ASARCO, who began 
mining at the Ray mine in 1948. Grupo Mexico, Mexico's largest 
mining company and the third-largest copper producer in the 
world, purchased ASARCO in November 1999. The mine complex 
includes the nearby Hayden smelter, which is the largest single 
source of toxic pollution in Arizona. According to EPA, the 
occurrence of lung cancer among Hayden residents is roughly 50 
percent higher than the residents of the urban areas of Tucson 
and Phoenix.
    So to see the representatives such as the witnesses today 
deal with this problem--that, quite frankly, the industry has 
created over the past century--and also recognize the need to 
work more cooperatively with local communities as we go forward 
in this century, is a positive step toward meeting the needs of 
the present without compromising the abilities of the future, 
our future generations, to meet their own needs. I would say 
this is very good progress.
    I look forward to the witnesses' testimony. Thank you very 
much, Mr. Chairman.
    [The prepared statement of Mr. Grijalva follows:]

    Statement of The Honorable Raul M. Grijalva, Ranking Democrat, 
              Subcommittee on Energy and Mineral Resources

    Mr. Chairman, I am pleased to join you in welcoming our panel of 
witnesses today to discuss sustainable development as it relates to 
mining.
    I am also pleased that a growing number of mining industry leaders 
are recognizing that ``sustainable development'' is a good idea. As 
noted in the report entitled, ``Our Common Future'', published by the 
World Commission on Environment and Development in 1987, ``Humanity has 
the ability to make development sustainable--to ensure that it meets 
the needs of the present without compromising the ability of future 
generations to meet their own needs.''
    All over the West we see the unfortunate results of mining 
operations that did not take the principles of sustainable development 
into account in their rush for gold--or, in my State--for copper. The 
Environmental Protection Agency estimates that mine wastes contaminate 
40 percent of western headwaters, and that cleaning up a half million 
abandoned mines in 32 states may cost $35 billion or more. According to 
government estimates, the State of Arizona is home to approximately 
100,000 inactive or abandoned mining sites, an estimated 3,000 of which 
pose an environmental risk. The Arizona Department of Environmental 
Quality has stated, ``the legacy pollutants that remain from...active 
and former mines are some of the major pollution sources for Arizona's 
waterbodies.''
    Additionally, communities are understandably becoming more 
concerned about the effects of having a mine in their neighborhood. For 
example, Arizonans who live near the Ray Copper Mine, in Pinal County 
in southern Arizona, about 65 miles east of Phoenix are concerned about 
the high rate of lung cancer in their community. This mine was owned by 
ASARCO, who began mining copper at the Ray Mine in 1948. Grupo Mexico, 
Mexico's largest mining company and the third largest copper producer 
in the world, purchased ASARCO in November of 1999.
    The mine complex includes the nearby Hayden smelter, which is the 
largest single source of toxic pollution in Arizona. According to the 
EPA, the occurrence of lung cancer among Hayden residents is roughly 50 
percent higher than for residents of the Tucson and Phoenix areas.
    So, to see representatives, such as our witnesses today, own up to 
the problems their industry has created over the past centuries and 
also recognize the need to work more cooperatively with local 
communities as we go forward in this century is a positive step toward 
meeting the needs of the present without compromising the ability of 
future generations to meet their own needs.
                                 ______
                                 
    Mr. Gibbons. Thank you very much.
    What we will do now is introduce our first panel. It beings 
with Mr. Jim Jeffress, retired wildlife biologist and private 
consultant, from Lovelock, Nevada. Mr. James Arnold, Vice 
President for Technical Services and Projects, Coeur d'Alene 
Mines Corporation. Mr. Tom Harrington, Assistant Manager, 
Jefferson Local Development Corporation. Mr. Courtland Lee, a 
geologist, Glenn Dale, Maryland. And Ms. Ann Carpenter, Mineral 
Development Consultant, Women's Mining Coalition, and past 
president/advisor of that organization.
    Ms. Carpenter and gentlemen, if you will all rise, raise 
your right hand, we have an oath.
    [Witnesses sworn.]
    Mr. Gibbons. Let the record reflect that our witnesses all 
answered in the affirmative.
    We will begin now--your right--to the left, with Mr. 
Jeffress. Welcome. The floor is yours. We look forward to your 
testimony. We do have a little stop-and-go light here in front, 
a 5-minute timer on that. We would ask that you try to keep 
within the 5 minutes. We are not going to be very harsh on you 
if you go over a little bit, but once you get beyond taking up 
time for everybody else, then we will ask you to summarize.
    But Mr. Jeffress, welcome. We look forward to your 
testimony. The floor is yours.

          STATEMENT OF JIM JEFFRESS, RETIRED WILDLIFE 
                  BIOLOGIST/PRIVATE CONSULTANT

    Mr. Jeffress. Good morning, Mr. Chairman, Congressman 
Grijalva. My name is Jim Jeffress. I'm a resident of Pershing 
County, have lived in northern Nevada my entire life, and have 
worked as a certified wildlife biologist for over 30 years. I 
retired from the Department of Wildlife in 2003 and am 
currently working as a private consultant. I serve on the 
Pershing County Checkerboard Lands Committee in the State of 
Nevada Wildlife Commission.
    For many northern Nevada communities which rely upon the 
mining industry for jobs, employment is up and the future looks 
bright. But this is not the case for the City of Lovelock in 
Pershing County. Many wage earners in Lovelock work at the 
Rochester mine or have jobs directly related to it. But that 
mine will close within two or three years and there are no 
mining or other project developments that will be able to 
replace those jobs in the immediate future. The mine has been a 
mainstay of the county close to 20 years.
    The closure of Rochester mine is one of the greatest 
challenges facing our community, and people are concerned about 
how to deal with the dramatic loss of jobs, taxes, and other 
economic benefits. Some people certainly will relocate to other 
jobs in Nevada or throughout the West, but how Lovelock will 
survive as a community--and its future economic development is 
important to me and others who plan to remain there.
    The most important fact to know about northern Nevada is 
that it is overwhelmingly owned by the Federal Government. 
Exactly 91.6 percent of Pershing County is federally owned. 
Most of that is managed by the BLM. Pershing County is a large 
county as counties go, 6,000 square miles, with large distances 
between developed locations. Mr. Chairman, that is 1,000 square 
miles larger than the State of Connecticut. The county is 
sparsely populated. There are 6,400 residents, and 
approximately half of those live in the City of Lovelock.
    My point is that with this much land under the control of 
the Federal Government, there is little chance that Pershing 
County can attract economic development, sustainable or 
otherwise, without the active cooperation of the Federal 
Government.
    A second extremely important fact, that we have very little 
infrastructure to offer in the pursuit of economic development 
opportunities. The Federal lands that dominate the county have 
roads to the extent that they were built to service mines, 
ranching, or other approved activities within the county. Most 
of Pershing County is roadless, has no access to cell signals 
or other telecommunications, water, or power.
    A story of my experience as a consultant illustrates very 
well how these two facts work together to control what can or 
cannot be done in rural Nevada. A few years ago, a businessman 
from Texas contacted me to explore the possibilities of 
installing windmills in Pershing County to generate power. The 
man asked me to help identify roads to particular sites he was 
interested in for a wind farm. I explained there were no roads, 
that road construction would be necessary, and that 
construction is controlled by the BLM. Construction of roads 
would be expensive, time consuming, and under the best of 
circumstances it would more than likely take a year or more to 
clear the NEPA process. Eventually, the lack of infrastructure, 
the potential scoping process with various other user groups, 
and the Federal control of the approval process discouraged 
this investor.
    Mr. Chairman, I do not offer this story as criticism of the 
BLM. To my knowledge, the man never contacted that Agency, 
never followed up. In his mind, the hurdles were too 
formidable. To me, this story simply illustrates that in 
Pershing County and places like it, we must have the 
cooperation and support of the Federal Government in order to 
build those local economies.
    The other lesson of this story is that infrastructure, 
where it exists, is extremely valuable. Where they can be used, 
these resources can constitute sustainable development in a 
very real sense. For Pershing County, the roads, powerlines, 
buildings, and other facilities at the Rochester mine have 
immense value if they can be used for something besides mining.
    I need to be clear that I am not an expert on the Coeur 
proposals to haul aggregate or rock from that site. I have some 
familiarity with it, but it is not my place to say whether it 
would be a successful venture or not. What I can say is that 
the Government and Pershing County should look carefully at any 
and all economic development proposals that can take advantage 
of the roads, powerlines, and other facilities built to support 
that mine operation. If there is any way to use these valuable 
assets to create jobs and keep workers in Pershing County and 
comply with Federal and State regulations regarding 
environmental concerns, we should support it.
    Mr. Chairman, thanks to the rich mineral resources in the 
State of Nevada, the mining industry is the biggest source of 
economic stability in rural Nevada, providing jobs, benefits, 
infrastructure, and tax revenues to communities that otherwise 
would not thrive. Unfortunately, all mining operations are 
finite in their life span, and in Pershing County that truism 
is fast becoming a reality. For the citizens of our county it 
is particularly important for the Federal Government to figure 
out just what sustainable development means within the mining 
industry and what needs to be done to provide it.
    Mr. Chairman, I appreciate the opportunity to testify 
before you today, and that concludes my statement.
    [The prepared statement of Mr. Jeffress follows:]

      Statement of James Jeffress, Resident of Lovelock, Nevada, 
                        Pershing County, Nevada

    I appreciate the opportunity to present testimony for the 
Committee's record on sustainable development opportunities in mining 
communities. I am now a private resident of Pershing County, and have 
lived in northern Nevada my whole life. I am a 1972 graduate of the 
University of Nevada Reno with a BS in Wildlife Management. I have 
worked as a certified wildlife biologist for over thirty years, 
including as the Washoe County Wildlife Biologist and the Humboldt 
County Wildlife Biologist, and have been involved in over fifty 
collaborative planning processes dealing with public land or wildlife 
related issues (i.e. Coordinated Resource Management Plans, the Modoc-
Washoe Stewardship Planning Process, numerous Technical Review Team 
processes, allotment processes, statewide Sage-Grouse conservation 
planning effort, etc.). Before retiring from the Nevada Department of 
Wildlife in 2003, <SUP>1</SUP> I received the Department's 2002 
Employee of the Year award.
---------------------------------------------------------------------------
    \1\ From 1993-2003, the Department was known as the Nevada Division 
of Wildlife, a division of the Nevada Department of Conservation and 
Natural Resources. The Nevada Legislature created the Department of 
Wildlife in 2003, elevating it to a Cabinet-level agency (Assembly Bill 
41).
---------------------------------------------------------------------------
    I am currently self-employed as a private consultant, working for a 
variety of private and public interests including the United States 
Bureau of Land Management District Office in Winnemucca, where I am 
assisting the Bureau in drafting the narrative portions of the Sage-
Grouse Conservation Plans for Humboldt County. I am a past member of 
the Board of Directors for Nevada Bighorn Unlimited, and have worked 
extensively on re-introducing California Bighorn Sheep back into 
Nevada. I was one of the originating founders of the Nevada Chukar 
Foundation, which has placed wildlife guzzlers (water developments) 
throughout Northern Nevada and provided other programs to improve 
habitat for Nevada's Chukar Partridge and a myriad of other wildlife 
species. I currently serve on the Pershing County Checkerboard Lands 
Committee <SUP>2</SUP> and as a Commissioner of the Nevada Wildlife 
Commission. I live with my wife Paige, and our two children Kelli and 
Matt, in Lovelock, NV about 90 miles northeast of Reno, NV.
---------------------------------------------------------------------------
    \2\ The Committee was created by the Pershing County Board of 
County Commissioners to coordinate discussions about federal land use 
issues in the County and potential federal legislation addressing 
future land use. In the 19th Century, the federal government granted to 
railroad companies every other section of land along the right-of-way 
for the transcontinental railroad to create incentives for construction 
and settlement. The resulting ``checkerboard'' creates difficult 
management issues for the BLM and impairs the ability of private 
landowners to use and develop their lands. One of the major goals of 
the Pershing County Checkerboard Lands Committee is to address and 
resolve the problems created by the checkerboard in the County.
---------------------------------------------------------------------------
    I have spent most of my career in Northern Nevada, where hard rock 
mining on federal lands is a crucial part of the economy. Most of the 
good-paying jobs in Lovelock and Winnemucca, my current and previous 
cities of residence, are mining jobs or are directly related to the 
mining industry. The 1980's and early 1990's were a great time for 
rural Nevada, when strong gold and silver prices brought large mining 
operations, good jobs, and prosperity to little Nevada towns that had 
not enjoyed these advantages in a long time. The mid-1990's brought 
some cutbacks in the industry as prices dropped. In Winnemucca and 
towns like it, times were tough for many families as companies reduced 
their employment or shuttered mines. People held on and hoped for a 
better future, which has now arrived again with higher gold and silver 
prices.
    For many Nevada communities, employment is up and the future looks 
bright, but this is not the case for the City of Lovelock and Pershing 
County. Many wage earners in Lovelock work at the Rochester mine, or 
have jobs directly related to it, but that mine will close within two 
or three years, and there are no mining or other projects in 
development that will be able to replace those jobs. The mine has been 
a mainstay in the County for twenty years, even during the low metals 
prices of the 1990's, but its resources are mined out. A lot of people 
in Lovelock do not remember what things were like before the Rochester 
mine opened; the economic dislocation caused by its closure will be 
traumatic.
    The closure of the Rochester mine is one of the greatest challenges 
facing our community, and people are concerned about how to deal with 
the dramatic loss of jobs, taxes, and other economic benefits. Some 
people certainly will relocate to other mining jobs in other parts of 
Nevada or the west (or elsewhere in the world) and will do just fine. 
How Lovelock will survive as a community and its future economic 
development is important to me and to others who plan to remain there.
    In a larger sense, how Pershing County reacts to the closure of the 
Rochester mine may help other mining communities learn how to survive 
the closure of the mines that help sustain their economies. In our 
earlier history, these kinds of events created the ghost towns of the 
western United States, but times are different and our policies for 
dealing with this kind of change have also changed for the better. One 
of those policies is the concept of ``sustainable development,'' which 
is what the Committee is looking into in this hearing.
    I am not an expert on sustainable development, but I believe I have 
several ideas of value to contribute to this Subcommittee. I live in a 
mining community, and have done so for most of my adult life. My career 
as a wildlife biologist (and currently as a consultant on wildlife 
management issues) makes me very familiar with federal lands management 
in rural Nevada. Finally, my involvement in the various civic affairs 
of Pershing County and rural Nevada generally makes sustainable 
economic development a topic of utmost importance for me.
    The most important fact to know about Northern Nevada is that it is 
overwhelmingly owned by the federal government. Exactly 91.6 percent of 
the land in Pershing County is federally owned, and most of it is 
managed by the Bureau of Land Management. Pershing County is large as 
counties go--about 6,037 square miles or 3,803,680 acres--with long 
distances between developed location. Mr. Chairman, that is 1000 square 
miles larger than the State of Connecticut. There is only one city of 
any size--Lovelock--which is surrounded by federal land. The county is 
sparsely populated; there are about 6,400 residents, with approximately 
half living in Lovelock. My point is that with this much land under the 
control of the federal government, there is little chance that Pershing 
County can attract economic development (sustainable or otherwise) 
without the active cooperation of the federal government.
    A second, extremely important fact is that we have very little 
infrastructure to offer in the pursuit of economic development 
opportunities. The federal lands that dominate the county have roads 
only to the extent they were built to service mines, ranching, or other 
permitted activities on those lands. Most of Pershing County is 
roadless, has no access to cell signals or other telecommunications and 
no water or power.
    A story from my experience as a consultant illustrates very well 
how these two facts work together to control what can and cannot be 
done in rural Nevada. A few years ago, a businessman from Texas 
contacted me to explore the possibility of installing windmills in 
Pershing County to generate power. Nevada, including Pershing County, 
has significant wind generation resources. The man asked me to help 
identify access roads to particular sites he was interested in for the 
windfarm. I explained that there were no roads, that road construction 
would be necessary, and that construction would be controlled by the 
Bureau of Land Management. Construction of roads would be expensive and 
time-consuming, and under the best circumstances would take a year or 
more to approve because of the necessity to comply with the National 
Environmental Policy Act. Eventually, the lack of infrastructure, the 
potential scoping process with various other groups, and the federal 
control of the approval process discouraged this investor.
    Mr. Chairman, I do not offer this story as criticism of the BLM; to 
my knowledge, this man never contacted the BLM or started any process 
to obtain approvals necessary to build a wind farm. In his mind, the 
hurdles were too formidable. To me, this story simply illustrates that 
in Pershing County and places like it, we must have the cooperation and 
support of the federal government in order to build our economies.
    The other lesson of this story is that infrastructure, where it 
exists, is extremely valuable. Where they can be used, these resources 
constitute ``sustainable development'' in a very real sense. For 
Pershing County, the roads, power lines, buildings and other facilities 
at the Rochester mine have immense value if they can be used for 
something besides mining. I need to be clear that I am not expert on 
Coeur's proposal to haul aggregate and rock from the site. I have some 
familiarity with it, but it is not my place to say whether or not it 
would be successful. What I can say is that the federal government and 
Pershing County should look carefully at any economic development 
proposal that can take advantage of the roads, power lines, and other 
facilities Coeur built to support its mining operation. If there is any 
way to use these valuable assets to create jobs and keep workers in 
Pershing County, and comply with federal and state regulations 
regarding environmental concerns, we should support it. Opportunities 
should be assessed as a viable resource and not discounted merely 
because of current regulations. The site-specific nature of each 
situation should be examined as compared to ``no remaining 
opportunities'' for sustained economic development.
    Mr. Chairman, thanks to the rich mineral resources in the State of 
Nevada, the mining industry is the biggest source of economic stability 
in rural Nevada, providing jobs, benefits, infrastructure, and tax 
revenues to communities that otherwise would not thrive. Unfortunately, 
all mining operations are finite in their life spans, and in Pershing 
County, that truism is about to become a reality. For the citizens of 
our County, it is particularly important for the federal government to 
figure out just what ``sustainable development'' means in the mining 
industry, and what needs to be done to promote it.
                                 ______
                                 
    Mr. Gibbons. Thank you very much, Mr. Jeffress. I 
appreciate your testimony and your being here today.
    We turn now to Mr. Jim Arnold, professional engineer, Coeur 
d'Alene Mines Corporation. Mr. Arnold, welcome. The floor is 
yours. We look forward to your testimony.

  STATEMENT OF JAMES R. ARNOLD, VICE PRESIDENT FOR TECHNICAL 
     SERVICES AND PROJECTS, COEUR D'ALENE MINES CORPORATION

    Mr. Arnold. Good morning, Mr. Chairman. I appreciate the 
opportunity to testify before you and the Subcommittee on the 
importance of sustainable development to the mining industry 
and to the rural communities that support our industry. My 
written testimony has been submitted and I would like to 
quickly summarize the key points here.
    I've worked for the mining industry for over 30 years and 
currently serve as a vice president of technical services for 
Coeur d'Alene Mines Corporation. Coeur is the world's largest 
primary silver producer, with American operations in Alaska, 
Idaho, and Nevada. As a person with long experience in the 
hardrock mining industry, I see both challenges and 
opportunities in contributing to sustainable development of the 
communities we leave behind when our mines close.
    The most important challenge facing the mining industry and 
the Federal Government is to identify productive post-mining 
land uses which must be compatible with Federal and State 
closure and reclamation requirements. These sites are often 
remote and, in their natural state, are not always amenable to 
recreation or other general public access. As challenging as 
these obstacles seem, there are also significant opportunities 
to reuse closed mine sites. Such sites are served by excellent 
roads across Federal lands, usually constructed by the mining 
companies at great expense. Similarly, mines typically have 
invested significantly in running power lines to their 
facilities and have extensive buildings and infrastructure that 
could be employed in a post-mining land use.
    Fortunately, we have great opportunity at Rochester mine in 
Pershing County to demonstrate sustainable development through 
an innovative post-mining land use proposal. The Rochester mine 
is nearing the end of its life. Currently the mine employs 
about 250 people with an average salary of $55,000 a year. 
Another 375 jobs in the State of Nevada are directly dependent 
on this mine. The mine is the largest private employer in 
Pershing County, and in almost 20 years of operation has paid 
$30 million in Federal, State, and local taxes.
    Coeur has tested the rock extracted from the Rochester mine 
and found that it is an ideal source of aggregate, small and 
large rocks, and boulders. These materials are in high demand 
in California, where they must be blasted or mined from 
increasingly scarce, hard-to-locate, and hard-to-permit 
quarries. By contrast, the material has already been blasted at 
the Rochester mine and is useless waste material if left there. 
Coeur's project is an excellent opportunity to place this waste 
material to a sound and valuable beneficial use. Let me make 
clear that this material is rock, not leached ore. Coeur has 
conducted extensive testing to the rock and there is no concern 
about creating environmental hazards or moving environmental 
issues from Rochester to other sites.
    Everything we know so far suggests that this could be a 
very successful business with the potential to create long-term 
employment opportunities for Pershing County. Unfortunately, 
this operation will not replace all 250 mining jobs that will 
be lost when the mining operation closes; however, it will 
replace a good portion of them at the start, and the operation 
has the potential to grow into something much larger. The 
infrastructure and the site's proximity to I-80 create other 
possibilities as well, including a potential wind farm, wild 
plant seed harvesting, grazing, and many other opportunities.
    Some people may ask why not just reclaim and close the mine 
pursuant to Federal and State law and leave it alone? The most 
important reason is that we are committed to our employees and 
the future of this community. Second, Coeur is sincerely 
interested in showing how sustainable development can work. 
Finally, Coeur will be involved with the site well into the 
future as it fulfills its legal and ethical responsibilities to 
close and reclaim the site. Why not use a great opportunity to 
keep the resources of the site working for the people of 
Pershing County?
    An important part of Coeur's proposal is to acquire 
approximately 7,000 acres of land at the mine proximate to the 
mining claims within the so-called Checkerboard. These Federal 
lands are isolated, difficult and expensive for the BLM to 
manage, and the BLM has already marked them for consolidation 
and disposal. We have had discussions with the BLM 
representatives in Nevada, who have expressed support for this 
land consolidation.
    Mr. Chairman, I know that the future economic health of 
rural Nevada communities is important to you and to this 
Subcommittee, and we are grateful for your efforts to help 
Coeur-Rochester make a model of sustainable development.
    Thank you.
    [The prepared statement of Mr. Arnold follows:]

    Statement of Jim Arnold, Vice President of Technical Services, 
                    Coeur d'Alene Mines Corporation

    I appreciate the opportunity to testify before the Subcommittee on 
the importance of sustainable development to the mining industry and 
the rural communities that support our industry. I would also like to 
thank the Subcommittee members for all the work that you have done to 
highlight this important issue, including the field hearing you held on 
this subject last year in Reno, Nevada.
    My entire career has been in the mining industry. I have worked in 
the industry for over 30 years, and my background is primarily in 
operations and engineering. I have served as General Manager for 
several mines and development projects throughout the United States 
while working for a variety of mining companies, including Gold Fields 
Mining Corporation, Santa Fe Pacific Gold Corporation, and Kinross. 
Before joining Coeur d'Alene Mines Corporation, I served as Principal, 
President and CEO of Knight Piesold & Co. in Denver, CO. I am a former 
Chairman and Board Member of the Nevada Mining Association (``NvMA''), 
and served as Chairman of NvMA's Environmental and Wildlife 
Subcommittees, during the time when the State of Nevada developed and 
amended many of its environmental and wildlife protection regulations 
specific to mining. I am a member of the Society for Mining, 
Metallurgy, and Exploration (``SME''), and will serve as the Society's 
president in 2007. In 2000, I was honored as SME's Mill Man of 
Distinction and was the recipient of the Society's Ivan Rahn Award for 
my contributions to education and professional development. I have 
authored over twenty-five technical publications. I hold a BS in 
Metallurgical Engineering from the University of Idaho and an MS in 
Engineering Management from the University of Missouri-Rolla.
    I currently serve as Vice President of Technical Services for Coeur 
d'Alene Mines. Coeur is the world's largest primary silver producer. We 
are an American mining company with properties in Alaska, Idaho, and 
Nevada. Coeur also operates in Australia, and has a new generation of 
low-cost silver operations expanding or coming into production in 
Chile, Bolivia, and Argentina.
    Policymakers have been using the term ``sustainable development'' 
at least since the United Nations'' Earth Summit in 1992. At that 
meeting, and at numerous international gatherings since, the concept 
has been endlessly discussed, and volumes have been written on the 
subject. The United Nations defines sustainable development as 
``development that meets the needs of the present without compromising 
the ability of future generations to meet their own needs.'' At its 
base, this is a doctrine of measured growth that should take into 
account all of the downstream consequences on community and the 
environment of a development.
    Implementing the concept of ``sustainable development'' in the 
mining industry presents unique challenges. It is an inescapable fact 
that minerals are scarce and they are a nonrenewable resource. Even an 
exceptionally large ore body will be exhausted at some point, and the 
community that grows up around and depends on it for resources and jobs 
will have to seek them elsewhere. Thus, sustainable development in 
mining has to contend from the beginning with the finite nature of the 
resource and has to look beyond the economic life of any particular 
project. Along with a commitment to ensure an environmentally stable 
and clean site once a mining operation is closed, sustainable 
development in mining has to take into account local communities and 
their long-term economic and social welfare.
    As the Chairman knows, many rural communities in the Western United 
States are islands surrounded by federal lands. Local governments have 
little control over how these lands are used and developed. This 
reality creates an additional challenge for communities hoping for 
stable post-mining economic development. The preponderance of federal 
lands means that local governments have little ability or opportunity 
to attract new business or to arrange for roads, power and the other 
infrastructure these businesses would need.
    As a person with long experience in the hardrock mining industry, I 
see both challenges and opportunities in contributing to the 
sustainable development of the communities we leave behind when our 
mines close. The most important challenge facing the mining industry 
and the federal government is to identify productive post-mining land 
uses for closed mines. Productive reuse can be difficult because the 
land has been devoted to mining, which leaves permanent structures such 
as mine pits, waste rock piles, heap leach pads, or tailings ponds that 
must be worked around, even after reclamation. Federal and state laws 
require extensive and expensive closure and reclamation of these 
facilities for environmental and safety reasons, and any post-mining 
land use has to be compatible with maintaining these requirements. 
These sites are often remote. And, in their natural state, they are not 
always safe for recreation or other general public access.
    As challenging as these obstacles seem, there are also significant 
opportunities to reuse closed mine sites. Because access is so 
important, these sites are served by excellent roads across federal 
lands, usually constructed by mining companies at great expense to 
carry traffic to, from, and around the mine sites. Similarly, mines 
typically have invested significantly in running power lines to their 
facilities. The sites have extensive office, laboratory, mechanical, 
and industrial buildings that could be employed in a post-mining use. 
Without a post-mining use, these expensive and valuable facilities will 
be demolished and reclaimed and will serve no further useful purpose. 
With the right planning and forethought, they could be placed in the 
service of post-mining land uses that will sustain jobs and economic 
development for communities long after mine closure.
    Mr. Chairman, I recognize that the reuse of closed mines is not 
going to work in every case in the cause of sustainable development. In 
some cases, the mine site, once closed and properly reclaimed, is best 
secured and left alone. This is a decision that must be made on a case-
by-case basis, looking at development opportunities, environmental 
impacts, and other conditions. Because mines always close, mining 
companies must be prepared to think of sustainable development not only 
as post-mining land use but as long-term community economic development 
that has little or nothing to do with the mine site or mining. In my 
opinion, these are the hardest questions to resolve about sustainable 
development.
    Fortunately, we have a great opportunity at our Rochester Mine in 
Nevada to demonstrate sustainable development through an innovative 
post-mining land use. We appreciate the Chairman's interest in this 
project, and believe it could help illustrate valuable sustainable 
development concepts as they can be applied practically in the mining 
industry.
    The Coeur Rochester Mine in Pershing County, Nevada is nearing the 
end of its life. The mine has operated successfully for almost twenty 
years, and has been the source of jobs and other economic benefits to 
the County and the Cities of Lovelock, Fallon, and Winnemucca, Nevada, 
for a long time. Currently, the mine employs about 250 people, with an 
average wage of $55,000 annually, and another 375 jobs in the State are 
directly dependent on the mine. The Mine is the largest private 
employer in Pershing County. In its almost twenty years of operation, 
federal, state, and local governments have received $30,000,000 in tax 
revenues from the mine.
    Through exploration and discovery of nearby silver and gold 
reserves, Coeur has extended the predicted mine life several times, but 
we believe at this point that the mine's reserves are mostly exhausted, 
and Coeur is preparing for closure. The BLM is currently conducting an 
environmental impact statement on the closure/reclamation.
    Rochester's employees are among the most prominent members of the 
communities of Lovelock, Fallon, and Winnemucca; they have a combined 
total of over 320 years of service to their communities, including 
volunteering as members of the local fire department and ambulance 
crews, serving as elected public officials, and coaching little league 
teams in the area. For the first time in almost a generation, the 
people of Pershing County face devastating economic impacts that will 
come with Coeur's exit from the business life of the community.
    These facts illustrate acutely how much Pershing County stands to 
benefit from innovative thinking about sustainable development, and 
conversely, how the County will suffer if we do not find a way to keep 
using the resources of Rochester to create jobs and economic 
opportunity. Coeur is grateful to the County and its people for their 
role in the mine's success, and is anxious to give back to them in a 
way that will provide opportunities for Pershing County's future.
    If successful, Coeur's sustainable development proposal will 
replace a significant portion of the mining jobs that will be lost, and 
has the potential to provide the County with a source of long term 
economic development. Coeur has tested the rock extracted from the 
Rochester mine during its operation and has found that it is an ideal 
source of aggregate, small and large rocks, and boulders. Aggregate is 
used as roadbed material, in concrete construction projects, as fill, 
in rip-rapping, and for other purposes. Armor stone and boulders are 
used in rip-rapping and other channel armoring projects. These 
materials are in high demand in California, where they must be blasted 
and/or mined from increasingly scarce, hard-to-locate, and hard-to-
permit quarries. By contrast, the material has already been blasted at 
the Rochester mine as a part of the mining operation, and is useless 
waste material if left there. Coeur's project is an excellent 
opportunity to place this waste material to a sound and valuable 
beneficial use.
    Let me make clear that the material we propose to ship to 
California (and possibly other markets) is rock. It has not been 
leached or treated with chemicals, and does not have acid-generating 
potential, so there is no concern about creating environmental hazards 
or moving environmental issues from Rochester to other sites. Coeur has 
conducted extensive testing of the materials, both as part of its 
mining operations and in development of the current proposal.
    Everything we know so far suggests that this could be a very 
successful business, with the potential to create long-term employment 
opportunities for Pershing County. There is enough waste rock 
stockpiled at the site to supplement current and projected future 
demand from California for some rock sizes as much as 100 years (or 
more). Unfortunately, this operation will not replace all 250 mining 
jobs that will be lost when the mining operation closes. However, it 
will replace a good portion of them at the start, and the operation has 
the potential to grow into something much larger, with more jobs and 
benefits for Pershing County residents.
    One potential for future development would be to accept non-
hazardous solid waste--either municipal, industrial, or construction 
debris--from Reno, Sparks, northern California or other places. The 
waste could be hauled in rail cars returning from carrying loads of 
aggregate or boulders. This arrangement--where it is feasible--would 
cut the cost of transportation in half. Some aspects of the Rochester 
site make it promising for solid waste management. Solid waste from 
mining already will be managed there. Coeur has studied the site 
extensively to prepare and conduct mining operations and therefore 
already knows a good deal about ground water, surface drainage, 
indigenous wildlife, historic sites, and other issues that would be 
important in citing a landfill operation. However, it is important to 
emphasize here that solid waste management is a potential future 
development, not one that Coeur is proposing currently. Before Coeur 
could accept solid waste at the site, it would have to obtain 
appropriate federal, state, and local permits.
    The electric, water, transportation, and other infrastructure at 
the site create other possibilities. Conditions may be favorable for a 
wind farm or other renewable energy technology. The site's proximity to 
Interstate 80 may provide other opportunities. Coeur continues to 
investigate ways to maximize use of the reclaimed mine site.
    Some people may ask why Coeur would be interested in undertaking a 
project like this. Why not just reclaim and close the mine pursuant to 
federal and state law, and leave it alone? The most important reason 
for our interest is that we are committed to our employees and to this 
community. There is an opportunity here to contribute to the future of 
Pershing County. Second, Coeur is sincerely interested in showing how 
sustainable development can work, but like other mining companies, 
struggles for ways to realize its potential. As I have already said, it 
is not easy to identify and pursue post-mining land uses, but this site 
presents a great opportunity to do just that.
    Finally, from a practical perspective, Coeur will be closing and 
reclaiming the Rochester site for years to come. To comply with 
numerous federal and state legal requirements, Coeur will demolish 
buildings, reclaim roads, regrade, revegetate and reclaim waste rock 
sites, rinse and revegetate leach pads, and so on. These activities 
will cost Coeur millions of dollars, and long term monitoring and care 
will last for decades. With the completion of reclamation, the chance 
to use roads and other infrastructure at the site will be diminished.
    Coeur's proposal to transport aggregate, rocks and boulders from 
the Rochester site would take advantage of this expensive 
infrastructure and would use some of the materials and structures that 
otherwise would have to be reclaimed. Accordingly, certain of the 
reclamation and closure activities and costs could become unnecessary, 
although Coeur does not anticipate substantial savings on closure and 
reclamation. Most importantly, Coeur will be involved with the site 
well into the future as it fulfills its legal and ethical 
responsibilities to close and reclaim the site. Why not use a great 
opportunity to keep the resources of the site working for the people of 
Pershing County?
    Finally, an important part of Coeur's proposal is to acquire 
approximately 7,000 acres of land at the mine proximate to mining 
claims. Coeur Rochester is responsible for the mining activities that 
have taken place there and for closure and reclamation, so the 
acquisition makes sense from that perspective.
    Further, the land lies within the so-called ``Checkerboard,'' the 
swath of federal land extending across Northern Nevada which is 
interspersed with private lands creating a ``checkerboard'' pattern. 
The land position was created when the federal government granted lands 
along the pathway of the transcontinental railroad in the 19th Century. 
The remaining federal lands are isolated, and difficult and expensive 
to manage, and so the BLM has marked them in its applicable land use 
plans for consolidation or disposal. We have already had discussions 
with BLM representatives in Nevada, who have expressed preliminary 
support for the land consolidation.
    Finally, the disposal of the lands would generate badly needed 
revenues. Because of the size of the land disposal, federal legislation 
is necessary to accomplish it, and the disposition of sale proceeds 
would be up to Congress. We propose that at least some portion of the 
proceeds be provided to Pershing County to assist in its economic 
development efforts.
    Mr. Chairman, I appreciate very much the opportunity to present my 
ideas about sustainable development to the Subcommittee and to speak on 
behalf of Coeur. I know that the future economic health of rural Nevada 
communities is important to you and to this Subcommittee, and we are 
grateful for your efforts to help Coeur make Rochester a model of 
sustainable development.
                                 ______
                                 
    Mr. Gibbons. Thank you very much, Mr. Arnold. We 
appreciate, as always, your presence here today and your 
testimony.
    We will turn now to Mr. Tom Harrington, Assistant Manager 
for the Jefferson Local Development Corporation. Mr. 
Harrington, welcome to the Committee. If this is your first 
time, we are happy to have you. The floor is yours. We look 
forward to your testimony.

        STATEMENT OF TOM HARRINGTON, ASSISTANT MANAGER, 
            JEFFERSON LOCAL DEVELOPMENT CORPORATION

    Mr. Harrington. Thank you, sir.
    Good morning, Chairman Gibbons and members of the 
Subcommittee. My name is Tom Harrington. It is a pleasure to be 
here today and provide you with information on a sustainable 
development journey between the Golden Sunlight Mine and the 
community at Whitehall, Montana. The community of Whitehall is 
located in southwest Montana, adjacent to the Golden Sunlight 
Mine. The Golden Sunlight Mine is an open-pit gold mine that 
has been in operation since 1982.
    The need to fully understand and assess the environmental, 
social, and economic impacts on a local community and to 
mitigate these impacts has become an essential aspect of 
successful mining today. Many quantifiable environmental 
standards exist in the regulatory guidelines and operating 
permits of the mine. Golden Sunlight has had great success with 
steep slope reclamation and other reclamation projects. The 
slide show is an example of steep slope.
    It is also in a very visible location along a major 
interstate highway that impacts millions of passers-by annually 
and visually demonstrates how good reclamation practices take 
care of the environment. The next three slides show shots from 
the interstate, local highway, and the frontage road.
    However, when you look at the social and economic 
standards, there are not clear checklists that rate the 
effectiveness of the Community Sustainability Program. 
Therefore, it's imperative that corporate leadership believes 
and is committed to the principles of sustainable development.
    There are five key areas that we identify as successes.
    One is teamwork, getting the local leadership and area 
stakeholders involved early in the process. A coalition of 
stakeholders was organized, called the Community Transition 
Advisory Committee. These stakeholders assess community issues 
and concerns and have been directly involved in the discussions 
relating to the mine. The membership is comprised of a cross 
section of the local area. The president of a local bank is a 
member, county commissioner, the mayor, local development 
corporation representative, a member of the Montana Fish, 
Wildlife, and Parks Commission, and a member of the local 
Chamber. This open and direct communication link between the 
community and the mine facilitated dialogue and future economic 
development opportunities.
    Second was information flow. The flow of information up, 
down, and across all lines of communication needed to be 
functional and effective. The key to our success was an open 
and honest flow of information on many aspects of the mine and 
allowed the CTAC members to become a direct conduit into the 
community.
    Third was public relations. Keeping everyone informed as 
new information becomes available is always an ongoing 
challenge. We implemented public meetings, routine news 
articles, made sure that the members were easily accessible to 
the community.
    Number four was tenacity. We found that nothing comes easy, 
and commitment and dedication will increase the probability of 
success.
    And the last, remain positive. The world is a place of 
constant change with many dynamic situations. It's important to 
look for the good in all situations and the silver linings.
    Now, when you get a community program that's working in 
concert with the mine, it directly benefits the community and 
the mine in both tangible and intangible ways. For example, in 
the 2003 legislative session, we saw several changes in Montana 
law. Let me just highlight one. In the past, mining operations 
were required to return their sites back to pre-mining 
conditions upon closure. This meant millions of infrastructure 
were removed at great expense to the mine. A new law allows 
mining operations to enter into an agreement with economic 
development organizations to use this infrastructure to 
mitigate the economic impact of a mine closure.
    Other areas of the mine that directly impacted the 
community was in providing equipment for search and rescue, 
medical equipment, helping with fires and floods, donating 
computers, contributing thousands of dollars to college 
scholarships, education field days, developing a community fish 
pond, and also helping with the Community Endowment Program. 
There is also a local grant program and business loan program 
that is comprised of about $800,000 that's used to help support 
the community, and this is solely from tax dollars generated by 
the Golden Sunlight Mine.
    We have also donated property for a business park, shown on 
the slide here, that will help with generating jobs and tax 
base. They are currently pursuing wind energy development at 
their site, which is a great story to tell about how an 
extractive industry that is dealing with a declining resource 
is able to utilize existing infrastructure to develop renewable 
energy that will benefit the community in the long run.
    The culture and attitude of the mine carries over into many 
different facets of the community. Things like company safety 
procedures become implanted into community programs and 
operations. Cultural integration also has an added benefit of 
educating others from outside the mining community. This 
contact with people not familiar with mining can have a 
positive future impact on mining legislation and laws as we 
create a better-informed voter.
    In conclusion, sustainable development is here to stay in 
the mining industry. It's more than just talking the talk; it's 
about understanding the benefits and actually going out and 
walking the walk. As in the words of a former Golden Sunlight 
Mine general manager, one of the most successful things we have 
done in preparing for closure is involving the community. 
Anytime you do that, you generate a lot more trust. Through 
this committee, the community of Whitehall gives the mine its 
license to operate.
    Thank you.
    [The prepared statement of Mr. Harrington follows:]

            Statement of Tom Harrington, Assistant Manager, 
                Jefferson Local Development Corporation

    Good morning Chairman Gibbons and Members of the Subcommittee:
    My name is Tom Harrington, and it is a pleasure to be here today 
and provide you with information about the on-going Sustainable 
Development journey between the Golden Sunlight Mine and the community 
of Whitehall, Montana.
    Orient you to the area: (Show the MT Map slide and the GSM open pit 
slide)
    As a local economic developer my focus is on creating jobs and tax 
base in Jefferson County, Montana focusing on the community of 
Whitehall where the Golden Sunlight Mine has been in existence since 
1982. We all know the ``boom and bust'' tradition of mining from a 
historical perspective. Montana, known as the ``Treasure'' State, has a 
rich mining heritage as evidenced by our state seal that has the words 
inscribed ``Oro y Plata'' (Gold and Silver).
    In our state, many community economies thrived as mining operations 
started, grew and developed. As the economic life of the mining 
operation eventually played out, the mine inevitably slowed-down and 
eventually closed resulting in devastating local economic impacts in 
many cases. Many of these once thriving communities, (to name a few: 
Marysville, Silver Star, Elkhorn, Virginia City, Bannock, Anaconda, 
Garnet, and Highland City,) either closed or dwindled into obscurity 
with the only tangible legacy of mining being landscape scars and 
abandoned buildings. These communities and countless others are 
examples of the impact of the mining culture of the past.
    Today the mining industry is undergoing a cultural shift and 
philosophical change related to mining in the modern day world. The 
need to fully understand and assess the environmental, social, and 
economic impacts on the local community and to mitigate these impacts 
has become an essential aspect of successful mining. This is known as 
``Sustainable Development''. Jefferson County has a heavy reliance on 
mining with 3 of 4 of the top taxpayers being mining firms. The need to 
implement an effective Sustainable Development program is essential to 
maintaining the current quality of life of the area residents. The 
assessment of community needs will vary from location to location 
depending on the existing environment. Mining organizations today need 
to be able to assess a community profile and adequately address area 
stakeholder and NGO concerns through the life of a mining operation. 
The information age and computer technology has created intelligent and 
astute area stakeholders and sophisticated NGO's.
    The challenge for Sustainable Development is how to measure the 
program effectiveness. Many quantifiable environmental standards exist 
in regulatory guidelines and operating permit requirements to help 
guide us in how to do it right. Golden Sunlight has had great success 
with steep slope reclamation (show slide of steep slope reclamation) 
and has been recognized for their outstanding reclamation program. To 
date they reclaimed over 1060 acres at a cost in excess of $20 million 
dollars and still have a $54 million dollar bond in place. (show slide 
of view of GSM Whitehall) Golden Sunlight's visible location along a 
major interstate highway impacts millions of by-passers annually and 
visually demonstrates how good reclamation practice takes care of the 
environment.
    However, when you look at the social and economic standards there 
are no industry road maps or checklists that rate the effectiveness of 
a community sustainability program. What this means is the criteria and 
measurement of these key components of sustainable development must 
come from the corporate leadership. This is more than just establishing 
a formal corporate policy or philosophy that is published in the 
corporate literature. It is imperative the corporate leadership 
believes and is committed to the principles of Sustainable Development 
and understands the relationship it has to shareholder value. We are 
fortunate that Golden Sunlight's parent company, Placer Dome USA, has a 
strong commitment to Sustainable Development and community partnerships 
that have been implemented by the Golden Sunlight Mine. Without this 
active leadership, commitment and focus, the process of Sustainable 
Development would likely have been doomed to fail at the mine operator 
level. Ultimately, the local area stakeholders and community will 
validate and be the true measure of success of a Sustainability 
Program.
    So, how do we implement a successful community Sustainable 
Development program? Several years ago the Golden Sunlight Mine was 
anticipating mine closure. Then Mine General Manager Doug Bailey had a 
vision to get the community involved in the process of how to mitigate 
the looming economic impact. Our lessons learned during this journey 
identified five key areas that helped set the stage for success. I 
would like to briefly highlight the importance of these areas.
    1. Teamwork: You must get the local mine leadership and key local 
area stakeholders involved as early in the process as possible. In our 
case, a coalition of area stakeholders was organized, called the 
Community Advisory Transition Committee (CTAC). These key stakeholders 
have met monthly to address community issues and concerns and have been 
directly involved in key discussions relating to the mine. CTAC members 
represent a broad cross-section of the area including the president of 
the local bank, a County Commissioner, the Mayor, a local development 
corporation representative who also has his own environmental 
consulting firm, a member of the Montana Fish, Wildlife, and Parks 
Commission who is also a local business owner, and the president of the 
local Chamber of Commerce. The primary focus of this group has always 
been to sustain existing mining operations while planning for the long-
term. This open and direct communications link between the community 
and the mine facilitated dialogue on future mine asset re-utilization, 
economic development opportunities and mine strategies.
    2. Information Flow: It became evident the flow of information up, 
down, and across all lines of communication needed to be functional and 
effective. The issue of what and how much information a mine is willing 
to disclose to area stakeholders on current operations will always be 
an item of debate. A large key to our success was an open and honest 
flow of information on many aspects of the mine operation that allowed 
the CTAC members to be a conduit to the community. It is also important 
to remember that bad news doesn't get better with age and these key 
community leaders can be a valuable resource to existing operations. 
The aspect of information flow is an essential part of developing a 
relationship that is built on trust and candor.
    3. Public Relations: Keeping everyone informed, especially the 
public, as new information becomes available is an on-going challenge. 
The implementation of public meetings, routine newspaper articles, and 
the easy accessibility to the team members was essential. Periodic 
sampling of the local community on how information flow is working and 
how current perceptions integrate with the team direction and actions 
is essential to avoid tunnel vision. Using an outside agency to survey 
and poll the community about on-going operations, decisions, and ideas 
can help keep the focus. We did a community survey that validated the 
committee direction was on track and in concert with the community.
    4. Tenacity: Good projects and ideas will always have strong 
competition. We found that nothing comes easy and commitment and 
dedication will increase the probability of success. As challenges 
developed, the committee was able to analyze and assess impacts and 
implement alternative plans by selecting the next best course of 
action.
    5. Remain Positive: The world is a place of constant change with 
many dynamic situations and it is imperative to always look for the 
good aspects and silver linings. Positive attitudes create a synergy 
that gets people wanting to be actively involved in a project and 
sustains momentum. It is important for the key members of the team to 
be optimistic and forward looking.
    When you get a community program that is working in concert with 
the existing mine operation, it creates a harmony and spirit of 
cooperation that directly benefits the community and the mine operation 
in both tangible and intangible ways. There are several positive 
effects of the GSM CTAC process that directly benefited GSM and the 
overall mining industry in Montana. Just a few examples:
    1. The 2003 legislative session saw some significant changes to 
existing state law that have had a positive impact on mining. A couple 
of highlights are:
          (a) In the past, mining operations were required to return 
        their sites back to as close to pre-mining operations as 
        possible and were included as a part of the on-going bonding 
        process. This meant millions of dollars of useful 
        infrastructure was removed at the end of mining at a tremendous 
        cost to a mining company. A bill was introduced and passed that 
        changed existing law to allow mine operations to enter into an 
        agreement with economic development organizations that could 
        use this infrastructure to mitigate the economic impact from 
        mine closure. This bill also allows existing mine operations to 
        decrease their existing bond requirement.
          (b) Change of venue for court review--An action to challenge 
        the issuance of a certificate must now be brought in the county 
        in which the activity occurred. In the past, litigation issues 
        were filed in district courts that may have exhibited more 
        favorable outcomes toward certain causes. Now, litigation must 
        be filed in the county where the operation is located.
    2. The integration of the Golden Sunlight Mine into the community 
over the past twenty years has had far reaching impacts. They are an 
active partner and have been directly involved with the community in 
many different arenas. A few areas that they have directly impacted are 
medical equipment purchases, search and rescue equipment donations, 
assisted the library expansion program, helped with equipment and 
manpower during local flooding, assisted with nearby wild land fire 
fighting, donated computers and musical instruments to area schools, 
provided resources to rebuild the school roof, donate thousands of 
dollars each year for college scholarships, have education field days 
at the mine site, work with academia on testing and research, allow 
recreational use of their non-mining property at no charge, provided 
property for an outdoor Lewis and Clark theater play, assisted with a 
wild turkey stocking program that now allows a turkey hunting season, 
support local sportsman organizations, contribute annually to the local 
baseball programs, donated land and assisted with the development of a 
family fish pond, and provided the initial resources for a community 
endowment program. There is also a local grant program and business 
loan fund that has in excess of $800,000 that is comprised of tax 
dollars from the Golden Sunlight Mine. These tax dollars converted to 
grants have allowed the local community to improve the rodeo grounds, 
baseball fields, build soccer fields, expand the local library, help an 
outdoor theater group, assist a local brain injury treatment facility, 
and assisted a business park develop infrastructure. Two major projects 
being worked are the Sunlight Business Park development and wind energy 
development. Golden Sunlight Mine donated 200-acres of their property 
along the interstate for the development on a business park that would 
allow the creation of jobs and tax base. They are also pursuing wind 
energy development on site that is a great story about extractive 
industry that has a declining resource utilizing existing mine 
infrastructure to develop a renewable energy source that benefits the 
local community.
    As you look at the Golden Sunlight Mine over the past twenty years 
and talk with area residents, you see a definite trend that the mine is 
truly integrated into all aspects of the community. When you further 
analyze the relationship you realize the community is also comprised of 
many mine employees and their immediate and extended families. The 
culture and attitude of the mine carries over into many different 
facets of the community culture. You see miners and family members as 
part of the PTA, school board, local government, youth programs, and 
charitable fundraisers. They are the coaches of local sports programs, 
leaders in scouting programs, involved with the local 4-H, and 
participate in many non-profit and civic groups. This direct community 
involvement by mine employees and family actually has a significant 
impact on the local culture and ideals. You see the positive impact of 
the mine culture being permeated throughout the community culture. 
Things like the company safety procedures becoming implanted in many 
local community operations and functions. Miners have a strong work 
ethic that is instilled into our schools and many community programs. 
These positive factors helped establish a strong base for future 
economic development opportunities. This cultural integration also has 
an added benefit of educating others from the non-mining public as they 
come in contact with these mining individuals while participating in 
these many activities. This routine contact with people not familiar 
with mining can have a tremendous positive future impact on mining 
legislation and laws. These better-informed voters will be able to make 
good decisions as mining issues come up for voting.
    In conclusion, Sustainable Development is here to stay in the 
mining industry. It is more than just talking the talk--it is about 
understanding the benefits and actually walking the walk. As in the 
words of a former Golden Sunlight Mine General Manger, ``One of the 
most successful things we have done in preparing for closure is 
involving the community. Any time you do that, you generate a lot more 
trust. Through this committee, the community of Whitehall gives this 
mine its license to operate.''
    Mining companies that fully understand, embrace, and implement 
Sustainable Development in future operations will be the industry 
leaders. Their past performance will pave the way for future success as 
new mining ventures are explored and developed. The commitment to 
Sustainable Development should reward these high performance 
organizations with reduced costs that will directly correlate to 
increased shareholder value.
                                 ______
                                 
    Mr. Gibbons. Thank you very much, Mr. Harrington. We 
appreciate your presence here and your testimony.
    We will turn now to Mr. Courtland Lee. Mr. Lee, welcome to 
the Committee. We look forward to your testimony. The floor is 
yours.

            STATEMENT OF L. COURTLAND LEE, GEOLOGIST

    Mr. Lee. Good morning. I am going to take you up on your 
offer to ramble a little bit here and submit my testimony to 
the record.
    I'm Courtland Lee. I've had a long involvement with these 
issues. I even worked on this committee back in 1980. With my 
graduate degree, School of Mines in Arizona, I'm familiar 
particularly with the large copper pits in Arizona. In fact, 
this kind of reminds me of the plight of trying to bring 
attention to this particular issue. Mo Udall used to tell a 
story about a rich man trying to board his horse--only this 
time ``the horse'' is these issues of mine reclamation. And he 
goes down the road and he sees this farmer, and he says can I 
board my horse in your place. He says, sure, it's $50 a month 
and we keep the manure. And the guy says that's a little more 
than I wanted to pay.
    So he sees this other farmer a little down the road and he 
goes and talks to him. And he says, How much are you going to 
charge me to board my horse here? And he says, well, it's $40 a 
month and of course we'll keep the manure. And so he says, 
well, I'm making progress. That is a ramshackle old house up 
that dirt road there. I wonder what he'll charge.
    So he goes up to this guy and the guy says, well, I'll tell 
you what, I'll board your horse for $5 a month. And the guy 
says, well, sign me up. As he's signing the paper, he says, 
just kind of curious. The other people all said they'd keep the 
manure. How come you don't make that stipulation? And he says, 
well, mister, at $5 a month there ain't gonna be much manure.
    I think that's sort of the public attention to this issue. 
I just walked by the hall, all these fallen soldiers in Iraq 
for our strategic interests. And if you allocate the Defense 
Department budget over some of the costs to import certain 
commodities--you know, in Nevada you're left all to yourself 
and you allocate the costs only on the natural resources, not 
the big picture. And I think that's some of the problem.
    I've been Chairman of the Sand and Gravel Board in Prince 
George's County. There's a 2-square-mile mine within 6 miles of 
where we sit. Built a lot of these buildings, all the 
sidewalks, the gravel that built the Beltway. And it's very 
interesting, because there's so much demand for land they by 
and large reclaim them into commercial use, housing 
developments. There's an Izaak Walton League not more than 5 
miles from here that has a water park in a reclaimed sand and 
gravel mine.
    I got into the azalea business. I'm kind of a farmer at my 
age. I've enjoyed getting out of all the intensity of these 
issues. But there's a great horticultural site, I think it's in 
the Northwest--it may be in Canada, even--but it's a limestone 
quarry that's just simply left unreclaimed. In the bottom, it 
has one of the most unique gardens in North America. People 
come from thousands of miles to go through this garden, which 
is basically a quarry that's unreclaimed.
    There's a lot of interesting and innovative things you can 
do to sustain development after you mine it, because you're 
kind of left with a very unusual piece of geography.
    My issues that I worked on many years were broader issues 
of--and I guess I'm witness to the decline of mineral 
exploration and new mining in the United States. I worked with 
a guy named Gary Bennethum when I was in Interior, and we came 
up with this article, ``Is Our Account Overdrawn?'' At the time 
we wrote this article in 1974, 1975, the official Government 
statistic for the amount of lands that were off-limits to 
mineral development was 6 percent. And we came up with, I 
forget, about 53 percent for hardrock and 60 percent for 
leasables. And when you have the official Government number at 
6 percent and we--our numbers have held up, by the way, over 
the years--we came up with over half the lands were withdrawn. 
And it's worse now than it was then. That makes you wonder 
about the attention given to the management of the Nation's 
mineral resources.
    And to sort of parallel that--and I've attached these in 
attachments--I got interested in the leasable minerals. And of 
course from Nevada, you're mostly hardrock, although I'm sure 
you have some potash--these large bedded deposits. And they 
came about going back to Teddy Roosevelt and even Taft, they 
withdrew all the lands in the United States. Right through 
World War I we had no way to allow anybody to drill for oil and 
gas or phosphate. And at the time of World War I, we imported 
all our potash from Germany and----
    I knew I'd go over the time. We imported our potash from 
Germany. Well, we went to war with Germany, and the potash shot 
right up to $400 a ton, a great hardship on farmers. And here 
we had some inklings of potash in New Mexico, but the 
Government had no process to transfer that to people to mine.
    One last story. When this article broke, we had a senior 
legislator came in from somewhere out West, and he talked about 
the July of 1941. The military went to the Interior Department 
to try to put a radar base on the Hawaiian National Park, which 
would give them 200 or 300 miles observation, because of the 
height, out over the ocean. And there were hearings and fights 
over that right up through December. Now, what if they had put 
that radar station, what if they had allowed that? What was the 
cost? What was the opportunity cost of that withdrawal versus a 
small radar base? And of course history, in that case, it was 
extremely high.
    That's the end of my statement. I'm over time.
    [The prepared statement of Mr. Lee follows:]

         Statement of L. Courtland Lee, Consulting Geologist, 
               Appalachian Gemstones, Boxlee Azalea Farm

    It is a pleasure to testify before this committee. I have worked 
here on staff and later in a number of capacities, mostly relating to 
mining and land use, exploration, and a number of legislative efforts. 
I carefully read the title of this hearing which was given to me as, 
``Sustainable Development Opportunities in Mining Communities, Part 
II.''
    There are always development opportunities as we are limited only 
by our imagination, influenced perhaps by a number of other factors. I 
will address the sustainable mineral opportunities issue first. Many 
mines have had amazing longevity, large mines and small mines. Often 
the demand for a commodity will wax and wane depending on the needs for 
the economy of the time. Throughout U.S. history, miners roamed the 
west from one mine employment site to another as new mines were opened 
and old ones closed, or new uses of old commodities injected life into 
mineral properties. In recent years there has been a trend away from 
sustained mineral use toward recreation, home sites, ski villages, etc. 
Much of this activity has been on mineral land since it is the only way 
to get title to remote federal land since the demise of an assortment 
of homestead laws. Ownership is achieved through a patented or even on 
occasion an unpatented mining claim. This may be good for homebuilding 
but it is not good for long term mineral use and employment based on 
that use.
    New concepts in ore deposition can lead to discovery of a whole new 
mine, or even a use of an accessory mineral may overtake the original 
mineral, for example porphyry copper on old gold mines.
    During the last decade, there have appeared to me alarming new 
trends. There has been a breakdown in the working of the mining law, 
and land access is restricted or denied over much of the national 
resource lands. This has occurred under a strong dollar, cheap foreign 
imports, and an explosion in popular environmentalism which in this 
case I would define as organized anti-exploration and mining. As costs 
to operate have gone up, opportunities in mineral employment have left 
the country, and I might add, many of the mineral employment centers 
have left as well. This is also a significant factor in our balance of 
trade deficits.
    Western mineral development is largely public land development and 
eastern mineral development is private mineral development. Of course 
in public land states where patented mining claims have been issued 
these islands have to some extent become private land.
    The breakdown of the mining law and an atmosphere of hostility 
toward mining directly effects opportunity for sustained development in 
all these communities. I believe it also affects the competitiveness of 
the entire American economy as America gives up once domestic sources 
for raw materials and relies on other nations, some friendly some not, 
and some that will change. This is not to say I favor protectionism, 
just a level playing field. Many mineral resources have to develop 
markets for their product. Once that market is taken over by a foreign 
competitor it may not come back.
    Government likes definite numbers: acreage of wilderness, 
employment, production numbers, tax revenue, etc. This is 
understandable. However, it rarely if ever accounts for the ingenuity 
of an idea, or the potential of discovery. Over the years attempts have 
been made at quantifying undiscovered minerals using probable, 
possible, or inferred categories to describe various known states of 
guessed at mineral reserves. However, if they can't be tested, they 
don't count, and if mineral land is placed off limits through dejure or 
defacto restrictions, the potential will remain unknown and will fail 
to sway a land use board against a known value, even one angry voice 
raised in favor of no change.
    If the topic of this hearing is sustainability of mineral 
development and employment in an area, under today's legal land use 
pattern, I would say it is unlikely development can be sustained long 
past the current operation.
    In order to achieve sustainability, which is possible, you would 
have to reform and update the American mining law, and reform and 
update all the raft of withdrawals including Wilderness with a big W as 
it basically enshrines a 1964 zoning pattern on public resource lands 
forever. What town in the United States today could live with a 1964 
road pattern as its sole zoning base. Yet American mineral producers 
are asked to do just that. And no, the planning process did NOT take 
into account mineral resources in the boundaries. They didn't have a 
clue, anymore than Tucson Arizona foresaw the expansion of housing 
outward in 1964 for today's housing market. They had a more flexible 
process and have been able to handle growth.
    This is our dilemma. The political will to make these changes may 
not be there. If this is the case, we will continue on until some 
crisis forces us to visit these solutions.
    I am attaching some papers I have written in conjunction with 
others on these issues. For nearly ten years I was with the Public 
Resource Foundation in an effort to come up with and pass a model 
Mining Law Bill. That model bill is not attached and I would refer you 
to Putnam Livermore in San Francisco if you are interested. Other 
articles demonstrate a progression since the Wilderness Act in 1964 to 
eliminating exploration and discovery for mining law minerals in our 
national resource lands.
    Mineral resources on Public resource lands are separated into 
locatable mineral resources; the hard to find minerals, and secondly 
leaseable minerals; the bedded mineral deposits or more easily found 
ones. Withdrawals affect both. With leaseable minerals there is enough 
information to get a sense of how much of the resource broadly exists 
and how much is currently under development. An attached article, I did 
years ago, indicates that potash in the U.S., a key fertilizer mineral 
is most in need of some attention in order to sustain mineral 
development. History would show that potash imports cut off from 
Germany in WWI led to great hardship by American Farmers.
    Finally attached is the new discovery Patuxent River Agate, a 
petrified bone material from of all places, Maryland. This was my 
discovery which last year became the Maryland State Gemstone by a 
strong vote. Six years ago this fine quality state gemstone did not 
exist. If it can be found in an eastern urban/suburban environment, 
what else is out there on those National Resource lands? Lands that 
were set aside for wise use, I might add, not for no use. If you don't 
look, you won't find.
    We are entering a new era. China, India, and other nations are for 
the first time competing for natural resources, resources we have 
historically had nearly all to ourselves. Where will the next 
generation get their minerals to sustain not only mining communities, 
but industrial communities all over this nation? I think this 
committee's attention to this issue is important.
                                 ______
                                 
    Mr. Gibbons. Well, thank you very much, Mr. Lee. Indeed, 
it's fascinating to hear those stories and the contributions 
that your testimony makes is indeed helpful. Thank you for 
being here today as well.
    We turn now to Ms. Ann Carpenter, a friend of long standing 
and someone I have a great deal of respect for, who has been 
before the Committee before. Ann, welcome. The floor is yours. 
We look forward to your testimony.

STATEMENT OF ANN S. CARPENTER, MINERAL DEVELOPMENT CONSULTANT, 
                    WOMEN'S MINING COALITION

    Ms. Carpenter. Thank you very much, Congressman Gibbons. I 
appreciate the opportunity to speak before this Subcommittee 
and on this important issue. I ask you to refer to my testimony 
for further detail on my background, but I've had over 25 years 
of experience in mineral development both domestically and 
internationally. As well, I've been working and focusing on 
sustainable development for various clients since 2000.
    Some of my work lately has been helping community groups 
develop in Nevada at various levels, some with just a focus at 
single mine sites and others with community group development 
in communities that host many different mine sites. The 
community groups are being initiated in Nevada and many other 
States where mineral development is occurring so we can look at 
mining as it plays a role in sustainable development at these 
communities. Oftentimes these are initiated by the communities 
and sometimes by the mining companies, but it's always in 
partnership as we try to evaluate how this particular industry 
plays a role in the overall development of a community. But the 
important point here is that the communities are the drivers. 
The drivers are not the mining companies so much as their 
participation inside of a community group.
    The groups are comprised of a multi-diverse stakeholder 
group, including business owners, mining companies, Government 
agencies, indigenous groups, and other interested parties. The 
focus here, inside of our testimonies here have been on 
hardrock, but I've seen this evolve out into the coal sector as 
well, and there are a number of individuals that are forwarding 
these sorts of initiatives in the coal sector.
    The objectives generally of these groups is to become more 
involved with the industries that they host, mining and 
otherwise; to strengthen communities through economic 
diversification; to look at mine sites with the idea of 
attracting other businesses; and to work in partnership with a 
broad group of people to address communities' growing needs. 
The integrated approaches give us, lead to sustainable 
development opportunities. There are many businesses that are 
coming to look at mine sites for different business 
opportunities. That includes renewable energy generation, as 
we've heard, waste management, eco-industrial park concepts, 
recreation, business parks, educational-institution 
partnerships, high-tech business opportunities, and law 
enforcement and military training.
    The impediments are tied to our current land use policies, 
as we've heard from some of the other testimonies today. These 
land use policies help to promote the boom-bust cycle that we 
constantly find ourselves in.
    The closure--we are required by law and regulation to close 
the mines. We complete extensive earthwork and revegetation 
reclamation. We also remove all buildings, roads, power 
facilities, water wells, et cetera, as part of this closure 
requirement. The closure policies limit the ability to reuse 
these sites and the communities are actually asking for more.
    The impediments include, in Western States where Federal 
land ownership is highest--Nevada being in excess of 87 
percent--communities can be surrounded and oftentimes are 
surrounded by Federal lands, limiting the growth opportunity. 
And if the map is still up, I ask you to refer to that map 
again.
    The restrictions currently placed on post-mining uses, as 
dictated by existing Federal land use policy and regulations, 
makes sustaining a strong economy in rural communities 
extremely difficult. We need mechanisms to privatize the land 
to help to promote other businesses. We currently have 
patenting land sales and land exchange, all very cumbersome, 
slow processes. And these current mechanisms, we often find 
ourselves in delays that actually impede economic growth and 
causing negative impacts to the ability to evolve these sites 
into other business opportunities.
    As I've discussed, the current businesses under 
consideration--and this by no means is a complete list--include 
renewable energy; and you have Kennecott, Queenstake, Placer 
Dome, Kinross, Coeur Rochester, Newmont, Placer at both Cortez 
and Golden Sunlight. A lot of companies are coming to these 
sites asking the various companies to see if they can 
characterize the site to see if wind energy generation, solar, 
geothermal are going to be possible. We have landfill business 
opportunities. Rawhide, Mesquite, and other mines across the 
West are looking at the possibilities. Recreation, trail 
systems, wildlife viewing in Nevada, California, Wisconsin. 
Some of the sites have business parks affiliated with them--
Flambeau, Wisconsin; some in Nevada, some in Montana. These are 
evolving discussions. And then educational-institution 
partnerships, like the McLaughlin mine in California, Flambeau 
mine closure in Wisconsin, and many other places.
    An interesting new development is military and law 
enforcement training facilities. At a recent community meeting, 
a Hawthorn individual, elected official, summarized a business 
opportunity that has come to them in the Hawthorn area. And I 
just had some interesting conversations on a plane flight 
recently with some military and law enforcement folks that were 
saying that we don't have enough training facilities to meet 
our growing demands for homeland security training issues. And 
they became very interested in, well, what's potentially the 
possibility of using these mine sites that have gone into 
closure for those potential personnel and unit training and 
equipment testing. There's a place out at Lakeview, Oregon, 
Thunder Ranch, that is one of these particular facilities where 
training occurs.
    A central question: How do communities gain access to these 
sites in order to develop other business opportunities for the 
long term? And the answer lies in the partnerships built 
between the communities, the governing agencies, mining 
companies, and other individuals and entities. The answers also 
lie in land use plans, policies, and regulations--ending the 
boom-bust cycle, communities' desires for additional 
utilization of mine sites, the Federal agencies, and the need 
to change Federal land policies. We need help to modernize the 
processes.
    Not only does the mine generate capital for investment, but 
the sites offer opportunities and assets--facilities, 
infrastructure, et cetera--for other business opportunities 
providing for sustainable development opportunities. The 
current mine planning and reclamation and closure requirements 
by State and Federal agencies leave little room for other 
businesses to utilize these sites. As companies and communities 
begin to shift their gears and address the need for changes so 
that the other businesses might have access to these sites, the 
Federal agencies also need to implement changes to their 
existing policies to help communities develop economic 
diversification. These are all necessary changes that benefit 
the sustainability of rural communities.
    And I thank you for the extra time in my testimony.
    [The prepared statement of Ms. Carpenter follows:]

              Statement of Ann S. Carpenter, Consultant, 
             Domestic and International Mineral Development

    Congressman Gibbons and distinguished participants:
    Thank you for the opportunity to testify before this Subcommittee 
today. My name is Ann Carpenter. I work as a professional in the 
domestic and international mineral development arena, and am an advisor 
to and past president of the Women's Mining Coalition (WMC). WMC has 
members and participants nation-wide addressing mineral development 
issues important to the companies we work for and the communities in 
which we live. Today I will discuss ``How Companies and Communities are 
Addressing Sustainable Development Opportunities''.
    I have a bachelor's degree in Geology from Montana State University 
in Bozeman, Montana (1980), with additional advanced degree studies 
completed at Mackay School of Mines, UNR (1981-1983). I have over 25 
years of experience as an exploration and mining industry professional, 
exploring for and developing mineral resources worldwide. This 
experience has provided me opportunities to work in many diverse 
geologic and cultural settings--in the United States, Chile, Argentina, 
Peru, Mexico, and East Africa. I have worked for junior, mid-tier, and 
major mining companies, as well as for local governments and 
institutions evaluating mineral resources--integrating sustainable 
development principles and practices from the grassroots exploration 
phase through property reclamation and mine closure.
Sustainable Development Background
    The Bruntland Report, or Our Common Future, is the report made by 
the World Commission on Environment and Development in 1987. It 
addressed growing concerns about the environment and how development 
creates impacts. In that report, sustainable development was described 
in this way: ``Humanity has the ability to make development 
sustainable--to ensure that it meets the needs of the present without 
compromising the ability of future generations to meet their own 
needs''.
    The mining industry addressed this further through a global effort 
called the Mining, Minerals and Sustainable Development (MMSD Global), 
and results of this effort are reported in ``Breaking New Ground--
Mining, Minerals and Sustainable Development'' (2002, London: Earthscan 
Publications), available online at http://www.iied.org/mmsd. 
Sustainable development has become a key concern for mining companies, 
the communities that host mines, NGOs, indigenous people, community 
leaders, business owners, educational institutions, and other 
interested parties.
    I worked on three of the four tasks related to the Mining, Minerals 
and Sustainable Development North America effort, helping to generate 
that final report in 2002. As well, I was part of a 40-person team 
headed by Anthony Hodge that generated the Seven Questions to 
Sustainability, How to Assess the Contribution of Mining and Minerals 
Activities (2002 publication). I have assisted mining companies and 
various communities in addressing, developing, and understanding 
principles and practices of sustainable development. Most recently I 
have been a consultant to Caterpillar, part of a team that designed and 
implemented a Sustainable Development Forum that Caterpillar hosted in 
conjunction with MINExpo 2004. In addition, I work as part of a 
Caterpillar team developing an educational film on sustainable 
development to be used in high schools and college level courses. I 
currently work with three Nevada-based community groups addressing 
mining and sustainable development issues, often in partnership with 
UNR's Mining Life Cycle Center and Great Basin College.
    Sustainable development is often described as pillars, and includes 
these elements: economic, environment and social/community. Governance 
is another pillar that is often included in discussions. Other terms 
that have been used to provide an image of sustainable development is 
the three-legged stool or triple bottom line. The latter refers to an 
accounting sheet providing bottom lines not only on economic activity 
but also on environmental and social/community issues.
    Sustainable development and sustainability are topics that many 
industries, companies, and individuals are discussing. 
PriceWaterhouseCoopers recently conducted a survey of over 25,000 
people worldwide. This survey revealed a near global consensus that 
companies should go beyond financial philanthropy and apply their 
expertise and technology to resolve social and environmental problems. 
Many industry sectors and their related companies are recognizing the 
need to demonstrate their commitment to generating profits, while at 
the same time reducing the impact of their businesses and operations on 
people and the environment.
Community Groups and Sustainable Development
    In areas where mines are being developed, community groups are 
springing up throughout Nevada, and the United States in general. These 
emerging groups are becoming more involved with the industries that 
they are host to, with the hopes of strengthening communities through 
diverse partnerships addressing diverse concerns and opportunities, 
including sustainable development concerns and issues. In rural Nevada 
communities, where mining is a key industry, these emerging community-
based groups are comprised of a broad range of interested stakeholders, 
providing forums for identifying, discussing, and resolving important 
community issues.
    A central desire is to bring business and economic diversification 
to rural Nevada, and to communities that are dependent on mining, 
addressing sustainable development needs. I am currently working with 
three community groups in Nevada; these are briefly summarized in 
Appendix A. Some of the objectives, as stated by various stakeholders 
in these community groups, include:
    <bullet>  To develop partnerships with a broad range of interested 
parties and individuals--assisting in the transition to sustainability 
in Nevada's rural communities.
    <bullet>  To collaborate with many, focusing on attracting new 
businesses to the area, often looking a mine sites and mining companies 
for economic diversification opportunities.
    <bullet>  To initiate longer term planning, strengthening 
communities through business and industry diversification.
    <bullet>  To foster a forum, promoting discussions between Northern 
Nevada communities.
    <bullet>  To develop a means, a process for interacting with the 
many entities and individuals that are in the communities, including: 
federal and state agencies, Native American tribes, business owners, 
educational institutions, various industries (retail, mining, ranching, 
gaming, energy generation, etc.), and interested citizens.
    It is important to note that the groups that are emerging are the 
result of community-based initiatives, forwarded by individuals in the 
communities hosting mines. As well, the mining companies are also 
initiating and expanding outreach efforts into the communities and 
areas where they operate, forming important partnerships with these 
hosting communities toward addressing economic and industry 
diversification. In addition, each of these community groups is 
comprised of individuals from businesses, mining companies, government, 
indigenous groups, and many others interested in participating.
    Although mining companies are some of the participants in these 
community groups, it is the communities themselves that drive the 
process, the discussions. Not only are the community groups addressing 
important issues locally, they are also partnering with other 
communities in the region with the hopes of attracting businesses to 
the region. Mining companies and the mine sites play an important role 
in these discussions.
Economic Diversification, Mine Sites and Land Use Policies
    Communities throughout Nevada are beginning to look at mine sites 
differently. These sites have a history of revenue generation for the 
host communities, and there is a growing desire by the hosting 
communities to attract other businesses to these sites to develop 
business opportunities. There is existing infrastructure in place at 
the mine sites--power, roads, buildings, water, etc.--and communities 
are asking that the facilities and infrastructure remain in place so 
that other businesses might be able to utilize them. This would allow 
for the site to evolve, to continue generating revenue for the host 
communities, and that would help the region to have more opportunities 
to develop additional sustainable business opportunities. Some of the 
businesses that have recently showed interest in utilizing these sites 
include:
    <bullet>  Renewable energy generation
    <bullet>  Waste management
    <bullet>  Eco-Industrial Park concepts (in concert with waste 
management and renewable energy generation)
    <bullet>  Recreation (trails, parks, fishing, etc.) and wildlife 
habitat--successful reclamation has resulted in vegetation and wildlife 
habitat enhancement--both having recreational value.
    <bullet>  Business Parks
    <bullet>  Educational institutions--partnerships for long-term 
learning; long-term monitoring and closure procedures provide unique 
partnership opportunities between educational institutions, the mining 
companies, state and federal agencies, and other interested parties.
    <bullet>  High tech business opportunities--data storage
    This should be considered a partial list, and in no way should 
reflect all of the possibilities that communities are currently 
reviewing to strengthen their economies. Some of these have potential 
specific ties to the mine sites, some need partnership relationships 
with mining companies and others, and some are stand-alone with the 
mining companies invited as potential investors.
    A testimony I submitted in October 2004, for a Field Hearing on 
``Sustainable Development Opportunities in Mining Communities Part I'' 
held in Reno, Nevada details some of these other business 
opportunities. The testimonies of others today also begin to account 
for some of the sustainable development opportunities that communities 
hosting mines are reviewing.
Business Diversification Hurdles
    Although there is a growing desire by communities to have other 
industries develop business opportunities at mine sites (either those 
that are still active, or those sites moving into closure), there are 
hurdles to being able to accomplish this business diversification. In 
order for new businesses to utilize mine sites, federal land use plans 
and regulations would need to be changed to better allow for this to 
occur. Nevada and its rural communities are constrained to small areas 
for development, with federal land ownership surrounding most 
communities, and constricting their business and community growth 
opportunities. Land use plans and existing regulations need to be 
evolved to help address rural communities and their changing needs with 
regard to business development. The mine sites provide a unique 
opportunity for this to occur, helping to attract other businesses to 
an area if access to the sites can be achieved easily and affordably.
    The Boom-Bust cycle continues to be a part of mineral resource 
development, causing great concern for many. It is not just the result 
of the short-term, finite business cycle of mining (when the resource 
runs out, then the mine must close), but it is also supported by 
federal land use plans and policies that require ``closure'' to occur 
at the mine sites. Under current federal policy, mining companies that 
are operating on federal land are not only required to complete 
extensive earthwork and revegetation reclamation, but they are also 
required to remove all infrastructures during mine closure. This 
includes roads, buildings, power lines and power transfer stations. 
This translates to lost economic and business opportunities for 
communities--communities view these as assets that could and would 
attract other businesses to the area.
    Mine buildings and other facilities at the mine sites can be used 
for other types of industrial activity and are considered an asset by 
many communities. Many mining properties are suitable for renewable 
energy projects such as wind, solar and geothermal. However, once the 
power lines and the transfer stations have been removed these types of 
projects may not be economically feasible. The Boom-Bust cycle 
continues, driven in a large part by land use policies that currently 
limit the ability of other businesses to utilize these mine sites after 
mining has been completed.
    The government plays a key role in the current Boom-Bust cycles 
regarding mining, driven by its existing land use plans, policies and 
regulations. These need to be evolved to help meet the growing needs of 
communities--to help develop stronger economic and sustainable 
development opportunities.
    Federal agencies play a vital role in rural communities' abilities 
to survive and evolve. It is time to evolve land use plans, policies 
and regulations to meet the changing needs of communities. Privatizing 
lands at mine sites would help to meet these growing needs of rural 
communities not only in Nevada, but across the west.
    The restrictions currently placed on post-mining uses, as dictated 
by federal land use policies and regulations makes sustaining a strong 
economy in rural communities extremely difficult. Privatization of some 
of the lands at mine sites (pits, facilities areas, etc.) is a way to 
help promote economic development following mining because the 
infrastructure developed at mine sites could be used to support 
redevelopment of the land, attracting other businesses.
    Patenting of lands in mining areas was a key ``privatizing'' 
mechanism in the past; a mechanism used to secure necessary title to 
lands on which mines were being developed. As a result, there are many 
historic mining districts across the west where there are large blocks 
of patented lands. Some of these have evolved over time into other 
business ventures, principally ``recreation-based''. Ski areas at 
Telluride, CO; Park City, UT; Sun Valley, ID are just a few examples of 
the mining areas where these types of businesses have evolved, and 
patented (private) lands played a vital role in this. The businesses 
have certainly helped the host communities to survive and evolve as 
well.
    Because patenting is not a viable option today, privatization 
opportunities are limited. Some mining companies have been in 
protracted (3-10 year) federal land sale processes, and the delays and 
excessive time taken to complete these has resulted in lost economic 
and business opportunities--not only for the mining companies but for 
the host communities as well. It is my understanding that a land sale/
exchange Phelps Dodge was forwarding took about 10 years to complete. 
There are other companies in Nevada attempting to move through the 
federal land sale process, and by all accounts these are progressing 
very slowly. More than anything, this is a frustration to the host 
communities as they view these delays and the slow process as a 
significant hurdle toward their ability to attract other businesses to 
the region and address their economic diversification needs. The longer 
the process, the more likely that interested business groups and 
opportunities will leave, looking for other more timely options.
    It is imperative that Congress review the current options regarding 
``privatizing'' lands at mine sites, with the objective of 
sustainability of rural communities. Patenting is a difficult to 
impossible process today--there continues a patenting moratorium on any 
new patent applications. So other methods need to be reviewed and 
updated to help to evolve land use policies and regulations to help 
meet the growing needs of communities. Increasing the private land base 
in rural counties in Nevada and elsewhere in the west is necessary, and 
the privatization of mining claims could help to meet the needs of 
rural communities. Please see Debra Struhsacker's testimony from the 
October 2004 ``Sustainable Development Opportunities in Communities'' 
Field Oversight Hearing in Reno, Nevada for more information on 
patenting and privatization.
Communities and Mines--An Evolving Partnership
    Communities are beginning to evolve their thinking relative to 
mining. More commonly, the mine sites and their facilities and 
infrastructure are seen as assets, and communities want access to these 
sites to hopefully develop other business opportunities. Some of 
business opportunities can be advanced concurrently with the mining 
activity; others are better suited to when the mine is in closure. This 
is a result of the research that communities are conducting, with the 
objective of economic diversification. A central question is, ``How do 
communities gain access to these sites in order to develop other 
business opportunities for the long-term?'' The answer lies in the 
partnerships built between the communities, the governing agencies, the 
mining companies, and other interested individuals and entities.
    There is also a significant shift occurring as communities look at 
mining and the revenue generated by the production of mined products. A 
lot of Nevada communities have been through multiple Boom-Bust cycles, 
and they now recognize the need to invest the revenue generated from 
mining in a different way: mining revenue is being looked at as seed 
capital to invest into other business opportunities that create 
economic diversification, stronger communities, and longer-term 
futures.
    Kennecott's Flambeau, Wisconsin project is a good example to 
review. A community group was formed--comprised of mine workers, 
community leaders, businesses, Native Americans, NGOs, and others--to 
address mining-related impacts and how the revenue generated by the 
mine could be used toward economic diversification. What emerged was a 
business plan that turned the initial investment of about $7 million in 
revenue and 70 mining-related jobs into approximately $50 million 
annual revenue and 500 non-mining dependent jobs. The mine revenue was 
viewed as seed capital for a longer-term investment in the community's 
future, and the community group and all of its participants helped to 
developed and guide this plan.
    Community groups in Nevada are looking at this example, and many 
others both in the domestic and international mineral development 
arenas, to help guide an evolving sustainable development process here 
in Nevada, especially as it relates to mining.
Summary Statements
    Not only does the mine generate capital for investment, but the 
sites offer opportunities and assets (facilities and infrastructure) 
for other businesses to potentially have access to, evolving the sites 
and providing for sustainable development opportunities. The current 
mine planning, and reclamation and closure requirements by state and 
federal agencies leave little room for other businesses to utilize 
these sites and their related infrastructure, helping to perpetuate the 
Boom-Bust cycle. As companies and communities begin to address the need 
for change so that other businesses might have access to these sites, 
the federal agencies also need to address what changes they can 
implement to help communities develop economic diversification 
opportunities at mine sites. This needs to change for the benefit and 
sustainability of rural communities across the west.
    There are many benefits associated with privatizing mining claims, 
and all would enhance sustainable development following mining on 
federal land. The current regulatory and legislative processes to 
privatization create impediments. Policy and legislative changes are 
needed to facilitate privatization as a way to encourage sustainable 
development following mining. Some of the necessary changes include:
    <bullet>  Lifting the current patent moratorium;
    <bullet>  Amending the Mining Law to include a fair market value 
patent without a reverter;
    <bullet>  Streamlining the administrative and legislative land 
exchange and direct sale processes.
    It is through community partnerships that people see opportunities 
flourish. The community groups that are evolving in Nevada are good 
examples of how partnerships between the communities, the mines, the 
state and federal agencies and other interested entities can help to 
develop sustainable development opportunities. The broad and diverse 
base of participants in these community groups allow for many issues to 
be addressed, problems solved, and greater successes realized. These 
groups are trying to address sustainable development issues and 
concerns, and changing land-use plans and policies is paramount to 
helping these communities meet their needs for a stronger future.
    Thank you for the opportunity to testify on this important topic.

                               APPENDIX A

                  COMMUNITY GROUPS--BRIEF DESCRIPTIONS

    The community groups that I am working with in rural Nevada 
include: Rawhide Community Advisory Group; Northern Nevada 
Partnerships-Elko; and a newly implemented Lander County-based 
community group. What follows is a brief description of how these 
groups came together.

Rawhide Community Advisory Group (RCAG)
    I started working with this group in 2003. The group was initiated 
in 2002, under the direction of a consultant (Steve Jarvis) to 
Kennecott's Denton-Rawhide Mine. The companies in joint venture were 
beginning to address mine closure issues at the Rawhide Mine, and 
wanted to get a group of stakeholders together to address the many 
issues surrounding closure. The group is comprised of individuals from 
rural Nevada communities surrounding the mine--Gabbs, Hawthorne, 
Schurz, and Fallon. I was hired to proceed with the group in 2003, 
continuing as the Facilitator of the group. There are approximately 15 
members in the group, representing the mine, elected officials, 
interested citizens, economic development leaders, Schurz / Walker 
River Paiute Tribal members, DZHC Base representatives, and various 
businesses in the region.

Northern Nevada Partnerships-Elko (NNP-E)
    In November of 2003, the Northeast Nevada Stewardship Group hosted 
a Mining and Communities forum in Elko, Nevada, and I was invited to 
participate as a Co-Facilitator. The outgrowth of that approximate 2-
day forum is the Northern Nevada Partnerships-Elko (NNP-E) group. The 
group is comprised of elected officials, mining professionals, 
representatives from both Great Basin College and the Mining Life Cycle 
Center, interested citizens, business owners, federal agency 
representatives (BLM and USFS), and economic development authority 
leaders. A key objective of this group is to address business and 
economic diversification and how the mines, federal agencies, 
interested individuals, businesses, and communities in the region can 
work together to address sustainable development issues. Another 
objective is to conduct outreach into other communities in Northern 
Nevada, to help these communities, if they so desire, to form community 
groups of their own.

Lander County Community Group
    This group came together in 2004, with a desire to address the 
proposed Yucca Mountain rail corridor (Lander County sections), as well 
as mining-related issues. This group is comprised of interested 
individuals from Austin, Battle Mountain, and ranching communities 
county-wide, including representatives from the BLM, the hospital, the 
Yomba Tribe, business owners, ranchers, mining companies, Great Basin 
College, elected officials, economic development authority, and local 
schools. This group is exploring ways for the mines, federal agencies, 
businesses, and interested individuals to work together to address 
sustainable development issues, forming partnerships that lead to 
stronger communities.
                                 ______
                                 
    Mr. Gibbons. Ann, it is always a pleasure to have you 
before the Committee. And everybody did very well in monitoring 
their time for opening statements. The process now is that we 
turn to the Committee members here to ask questions. We limit 
ourselves to 5 minutes just in order to give everybody else 
opportunity to question.
    I will take my first shot at it because I think each of you 
has raised some very good points. One of the things that 
impresses me is the fact that there are opportunities. Each one 
of you has envisioned opportunities in post-mine, post-closure 
to have the community benefit from something that was 
developed, built, constructed, created through the process of 
mining when the mining company came there and extracted the 
minerals, and the opportunity that that provides to a county.
    For example, Mr. Jeffress from Pershing County in Nevada, a 
county that is 6,000 square miles, 1,000 miles larger than the 
State of Connecticut, how large is the Coeur d'Alene mine in 
that county? I mean, just in terms of relationship. We are a 
6,000-square-mile county, how big is the mine footprint?
    Mr. Jeffress. To put it in perspective, most of the 
infrastructure that you find in Pershing County follows the 
Interstate 80 corridor. And that to Pershing County is 
approximately 75 miles long. Along that course there is maybe a 
half a dozen, five other developments besides Lovelock and two 
other satellite populations that extend in valleys. So we have 
about eight developed areas within Pershing County. Coeur 
Rochester is the ninth. It's significant when we look at it in 
that context. It's about 13 miles off of Interstate 80. It's on 
a paved road. It's relatively accessible. And it has a host of 
opportunities that were outlined earlier.
    So I guess to answer your question, Mr. Chairman, it is 
significant because it represents almost a tenth of the 
developed areas within Pershing County.
    Mr. Gibbons. In terms of relative size?
    Mr. Jeffress. Size, it is, I believe, around 1,800 acres, 
2,000 acres of developed site with roads, infrastructure, et 
cetera. So we're looking at three and a half square miles, 
something of that order. But as far as potential with 
ingressing powerlines, roads, et cetera, and associated 
opportunities within that, it's much larger.
    Mr. Gibbons. Ann, let me ask you a question. At the end of 
the mine closure and the process of looking at sustainable 
development within those areas for utilization by these 
communities, we are not talking about doing away with 
reclamation per se, I mean stopping that. All we are doing is 
talking about a common-sense approach, are we not? We would 
still be doing reclamation on some of the tailings files, still 
be doing reclamation where you can, where there is no need for 
keeping the infrastructure. Is that what we are talking about?
    Ms. Carpenter. Yes, oftentimes what you're looking at is 
the footprint of the infrastructures itself, like the road 
systems, potentially the major road systems, buildings, water 
wells, power plants, and the power lines. So you're looking at 
a small percentage of an overall impact area and the rest of 
the area that would not be host to new businesses would fall 
and would follow all the reclamation and closure requirements 
under the current reclamation and closure plans. So you're 
looking at a smaller footprint that would provide additional 
business opportunities, whereas the external zones would still 
fall under closure and reclamation requirements.
    Mr. Gibbons. So you still have obligations under the 
reclamation process, you are just taking a harder look at 
infrastructure that would remain that would be valuable for the 
community to take advantage of.
    Ms. Carpenter. Yes. The community or other businesses would 
come in and purchase those footprints or those facilities and 
then they would be required to reclaim them at the closure of 
their business opportunity. But the idea is to give these sites 
a second, third, or fourth chance to continue to generate 
revenue while still respecting the reclamation and closure 
requirements at the time that they would actually pull up 
stakes.
    Mr. Gibbons. Mr. Arnold, let me ask you a question. You are 
involved with Coeur Rochester. Is this Coeur Rochester's 
belief, that through sustainable development it can be released 
from reclamation? Is this a concept that you guys are pushing? 
Or are you still committed to reclamation even if you do 
sustainable development?
    Mr. Arnold. Well, we're committed to reclamation from an 
ethical standpoint, if not by law, but we are committed by law. 
We still complete NEPA. We will go through, and we're doing 
NEPA right now through an environmental impact statement for 
our closure. It's closure-focused. But even more and above 
that, you have the State of Nevada. And the State of Nevada 
doesn't care whether you're on Federal lands or on State lands, 
as long as you're within that boundary in Nevada you must do 
the reclamation that the State of Nevada requires.
    I don't anticipate any of these things, whether we do wind 
farming or aggregate sales or any of that, really changing what 
the ultimate reclamation would end up being very much at all.
    Mr. Gibbons. How would you merge the reclamation with the 
phase-in of, say, a business within the reclamation? How do you 
do that? What process do you follow?
    Mr. Arnold. That's not easy. That's difficult. In fact 
that's part of the reason why we were looking at trying to get 
this done as quickly as possible. We're within two years of 
being closed. What we're trying to do is pick up tenure of our 
investment and title to that land so that we can go through, 
and that will give us less than two years to do the design of 
this aggregate facility and wind farm or whatever else we do, 
construction, permitting of it, and we can start phasing people 
from the jobs that we currently have now, which is a nice 
silver mine, into these other facilities. If we handle that 
deftly and carefully, then we can do it and make it transition 
very smoothly. But what we're trying to do is think ahead right 
now so that we can keep from any hiccup happening in that 
transition.
    Mr. Gibbons. Mr. Harrington, how long has the Community 
Transition Advisory Committee been existence?
    Mr. Harrington. We started about in 2000.
    Mr. Gibbons. So it has been in for about five years?
    Mr. Harrington. That's correct.
    Mr. Gibbons. Did you work with the State legislature in 
Montana to change the State law in order for the Community 
Transition to create this process or to assist in this, to 
bring some measurable change to sustainability in that area?
    Mr. Harrington. Yes, sir, we did. In fact, my counterpart's 
actually a legislator from our district there, which 
encompasses our county. Our county actually has three mining 
operations. Three of our four largest taxpayers are mining 
entities. And to kind of respond to this Committee's discussion 
there about the infrastructure and post-closure mining 
activities that we could use, my counterpart, Scott Mendenhall, 
carried that bill. We were successful in getting that passed.
    Mr. Gibbons. For the audience, I think a lot of people 
don't understand what we are talking about, ``infrastructure,'' 
out there. We are talking, you know, paved highways that go up 
to these mine sites that are in existence today. We are talking 
about transmission lines for power that go up to these sites 
today, so if you did end up taking advantage of, say, 
alternative energy sources up there, whether it is geothermal, 
whether it is wind, whether it is solar, you have an 
infrastructure, or transmission line, that connects back to the 
grid in existence today that would normally have to be removed 
under the reclamation process. Those are important assets, 
expensive assets to install, expensive assets to remove; 
buildings that could be used for businesses, I am sure, that 
were created and put in place by the mining companies as well.
    I guess the end result is that we are rethinking the 
terminal end use of a mine throughout all of this. We are 
rethinking the fact that mining and historical perspective was 
the end terminal use of land. And today we are seeing now that, 
while we may extract the minerals, we now have a viable vision, 
option, whatever you want to think, about how we take not only 
care of addressing the disturbance we have there, but taking 
advantage of the infrastructure that was created so that we 
have a valuable resource that continues on beyond the mine 
life.
    Most mines have 10, 20, maybe 40 years and then they are 
required to close because the minerals have been exhausted and 
people go look for other places. In some small counties, unlike 
the East Coast, Mr. Lee, I am sure in Pershing County that the 
Coeur Rochester mine is an enormous contributor to the tax base 
in a county that is 6,000 miles. It is number one. And so when 
that closes, the county, that has responsible for education of 
its students and----
    What is the population of Pershing County today?
    Mr. Jeffress. Pershing County is approximately 6,400. And a 
little over half of those people reside in Lovelock.
    Mr. Gibbons. So it has responsibility for police and fire 
protection, water and sewer systems, for health care, for 
school systems, or all of those. And the number one taxpayer in 
a 6,000-square-mile county, which is not predominantly owned by 
private property, it is 92 percent owned by the Federal 
Government. Who then becomes the number one replacement 
taxpayer for that county to provide these services has got to 
be the question. It is an issue that I think is predominant.
    I mean, Mr. Lee, what would you think? How should Federal 
land policy be changed, in your view, so that we can access the 
infrastructure, access this, and have communities be able to 
offer an opportunity. Because right now, under Federal law, 
they cannot offer an opportunity to a business that may want to 
move there because the law doesn't permit that. The law 
actually requires, reclamation requires removal. How would you 
change? What would be your view on changing that law?
    Mr. Lee. Well, it's very interesting. It is indeed a 
problem, particularly in these rural communities, which by the 
way send all our tax money in here so we don't need to have 
mines back here. We live off of your largess in these small 
counties and you have to eat all the costs of development, send 
all the profits, a lot of them, to Government. In my analyzing 
the mining law--and I got some help from an economic geologist 
from the University of Texas. He was a State--looked over all 
the oil royalties. And the issue of the mining law, the 
royalties continue to come up. And in fact, if you add up 
State, local, and Federal taxes and benefits from mining, the 
Government gets approximately 40 percent of the activity, which 
is why many countries ask for exploration, because even if they 
don't find anything, they're 40 percent better off for all the 
money spent than they had before. It's not simply the royalty 
on the commodity mined. Now, very little of that goes back to 
these communities, you know, once the property is mined.
    Getting back to your question--I'm digressing--you need a 
flexibility in the process. And that's what's come about in all 
the zoning for urban development. You're not going to resolve 
all these issues. There are a lot of people on all sides. But 
unless you have a flexible process--and you don't get that on 
Federal lands with Federal law. The law's passed here, it goes 
to OMB to get money, and it goes through Congress. And just by 
the sheer weight of the Federal law, you deny a flexibility to 
the land managers. And oddly enough, we pay billions to have 
lands managed in both the Federal Government, and I'm sure in 
Nevada they have zoning ordinances and land use planners at the 
local level. You've got to give them more authority to innovate 
and come up with ways to sustain development in these areas. 
It's just--and that's true out here in the suburban East, only 
they're more able to do it because they don't have some 
overriding mandate that they have to comply with.
    Mr. Gibbons. So would you support, for example, removing 
the patent moratorium so companies that go in, make huge 
substantial investment in this land during the process of the 
mine can then have some predictability, some forecastability 
about how they can address the future surface issues after the 
mine has closed?
    Mr. Lee. Well, I worked for 10 years with John Livermore in 
Public Resource Associates, who you might know. He's in Reno.
    Mr. Gibbons. I do.
    Mr. Lee. And I picked up some of his ideas. He's quite an 
authority on this. But the patenting process in the 1872 mining 
laws broke. And a lot of the problem comes back to the Ulysses 
S. Grant dollars-per-acre fee. And I worked at Interior in 
minerals when we'd get a notice down that says the constant 
danger of mineral exploration always exists. Because to many of 
the other uses on Federal land, if a guy can put a piece of 
private land in the middle of your wildlife refuge or whatever 
you're planning to do, it sort of upsets your idea of the way 
you want to go. But it's kind of an elusive argument because 
there really isn't that much hardrock mined. And I separate 
leasables and hardrock. Hardrock are the hard-to-find minerals. 
One in 500 is successful.
    But getting back to the patent issue, you know, you really 
need to reform the mining law to have fair market value for the 
surface, I think. But you have to have the owner of the mine 
proceed with some kind of logical sustainable use. And the 
highest and best use of that property should be the goal of 
Government, not simply a mandated reclaim-it-at-any-cost. And 
the highest and best use can mean a lot of things. It depends 
on the topography, it depends on the geography of the town, it 
depends on--I mean, you know, I've heard people say, well, you 
ought to be able to build a Wal-Mart. But if you only have a 
town of 2,000 people, you're not going to get a Wal-Mart there.
    And that would be different than, for instance, the mine 
right out here five miles from where we sit in Washington, 
where you have a burgeoning demand. But even then, you have 
high vacancy rates and it may sit there for a long time. But 
they have a flexibility here in the East to accommodate 
subsequent land uses and they work with the private owner, 
because he owns from the sky above to the earth beneath in the 
fee simple title lands. Fortunately, a lot of the public lands, 
it didn't work that way even through the various patents as the 
Federal Government transferred that land to private ownership.
    Mr. Gibbons. But you foresee the ability to do something 
with the ownership of the land even though it is surrounded by 
additional, say, Forest Service land, to be able to protect the 
Forest Service land that is not impacted by the mine from any 
long-term sustainable utilization of that property?
    Mr. Lee. Well, I guess I'm old enough and free enough to 
say that I would want to give the Forest Service, and BLM in 
the case, any multiple-use agency a mandate to work with the 
mineral user regardless of whether he has an unpatented or 
patented claim, fee title, a whole patented claim, placer 
claim--they're all over there. You would want to look at it as 
a larger land use project and mandate that Federal manager to 
come up with the highest and best use of that particular piece 
of property. And it may require some exchanges. That to me 
seems to be what we like to refer to as wise use of public land 
and private land.
    Mr. Gibbons. Mr. Arnold, what is the infrastructure at 
Coeur Rochester? What kind of infrastructure do you have there?
    Mr. Arnold. It's extensive. A major mining operation is a 
major operation. We've got 13 miles, as Mr. Jeffress said, of 
paved road that heads up to the site. We have a 64 Kb powerline 
that runs there. We have synchronization control equipment to 
tie into that so that if we wanted to put in a wind farm, we 
can tie in. That takes pretty sophisticated equipment, because 
it's a very large mine and we run 85- and 150-ton trucks, we've 
got the buildings with the cranes for very heavy equipment 
that's there and available. Water. We've got wells. Septic and 
sewage facilities. It's a major city capable of supporting a 
lot of stuff.
    Mr. Gibbons. And all of that would have to be removed under 
the current reclamation program?
    Mr. Arnold. Yes. Yes, it would.
    Mr. Gibbons. The Coeur Rochester mine, and I did talk to 
Mr. Jeffress a little bit about that, about 3 square miles? Is 
that what you have?
    Mr. Arnold. Something like that.
    Mr. Gibbons. So in a county of 600,000, 3 square miles is 
5/100ths of 1 percent of the county.
    Mr. Arnold. I don't need to tell you how big Nevada is. 
Three miles sounds like a big area until you sit up there at 
Rochester and you look around and can see California 100 miles 
away. It's a pretty small speck in Pershing County.
    Mr. Gibbons. Well, it is significant, I would believe, to 
the people of Pershing County not only as a source of jobs 
today, but as a future opportunity for jobs after the mine is 
closed and some revenue source for a county that has an 
obligation and nowhere to have a property tax base that would 
help them adjust for the loss of that revenue, that tax revenue 
to that county. It's important.
    Let's see what kind of questions we can come up with from 
the staff that will maybe stump you. That is what their job is 
today, I guess.
    Let me go back to the same question I asked Mr. Lee, and I 
am going to ask Mr. Harrington: If the Federal Government or 
State Governments were to rethink their policies for mine 
closure, what recommendations would you have, from your 
experience?
    Mr. Harrington. Mr. Chairman, I think probably one of the 
things would be to look at the existing infrastructure and 
probably the continued use of that for economic development. 
You know, in our case, we actually had an outside engineering 
firm come in and take a look at the infrastructure that was 
there. When you say ``infrastructure,'' that's a pretty broad 
term, you know. It's kind of a catchall. What this firm did for 
us is went in and actually looked at each part of the 
infrastructure and then took a look at potential reuses. What 
that does, it allows you to focus on follow-on businesses that 
might potentially use that, so you aren't just kind of shotgun 
blasting of, Yeah, we're going to reutilize this for economic 
development. It gets it out of that catchall phase. I think if 
you're talking Federal lands or State lands or private land, I 
think you need to go in and assess that and say is this really 
a viable project for follow-on reuse?
    You know, you talk about wind farm renewable energy and you 
hear a lot about that, part of that process is to go in there 
and do an assessment of the site and ensure you've got a valid 
site. Now, as you look at wind energy maps and stuff, every 
site's going to be a good wind energy production location. In 
our case, we actually put an anonometer up there and did a 
little over a year's worth of study and data that validated 
that that was a potential wind energy site there, which allows 
you to proceed to the next level, where you're looking for 
potential investors and developers out there.
    So I think you've got to be careful about just saying, 
yeah, we're going to use the infrastructure and go and do this 
economic development, without doing a full-blown assessment of 
if it's viable or not.
    Mr. Gibbons. So part of the NEPA process or, you're saying, 
the original process ought to be what should be the end state, 
what should be the end utilization of those resources that you 
are going to have to put in when you look at the NEPA process 
for mine closure?
    Mr. Harrington. Yes, sir. I think part of it also is when 
you're first looking at permitting a mine. If those kind of 
rules were in place, you might actually see mining 
organizations developing that infrastructure that would lead to 
follow-on closure. Right now, you're looking at a mine location 
going in there, they're looking at the ore, they put their 
facilities in there, not really thinking about what's going on 
at post-mine closure, because right now they're looking at 
we've got to take the infrastructure out.
    You turn that around and say part of the process is take a 
look at, initially going in, how you're going to develop this 
infrastructure and what it can be utilized for follow-on 
activities, I think you'll see a little different process in 
that.
    Mr. Gibbons. Mr. Arnold, how do you make available or gear 
up for a sustainable business when you are going through the 
process of closure right now with the current and existing 
regulations the way they are?
    Mr. Arnold. Actually, we're gearing up right now. In fact, 
we've got a little business going on right now on reclaimed 
lands. We've gone through and we have planted some native 
species and we're harvesting the seeds, some of it extremely 
valuable seed. There's a penstemon seed that is highly regarded 
for reclamation, and we sell it to the other mines. The area 
was covered with PJ, pinion juniper. We've been able to go 
through and grow some very extensive grasses, so the area's 
better for grazing right now than it was before. If we can get 
through and gain tenure to the land, we'll start looking at 
wind farming then, at that point in time. It just takes careful 
planning to be able to do that.
    If you plan and do it--there's nothing complex in the 
businesses themselves. Selling aggregate isn't a big deal. 
Putting in the wind farms isn't big. You just have to be able 
to plan it ahead of time.
    Mr. Gibbons. I would like to ask from each of our witnesses 
what has been their experience in dealing with BLM, Forest 
Service, or other agencies--Fish and Wildlife--with regard to a 
proposal for a sustainable development or a sustainable 
utilization of the resources after mine closure. What has been 
your experience?
    I will start with Ann. Have you ever had any relationship 
or dealings with the Government on this issue?
    Ms. Carpenter. Yes, I have a couple of clients that are 
stuck in a process that doesn't appear to be moving forward in 
a very fluid fashion. The delays are--and the communities are 
basically the ones saying come on, get this pushed through, we 
want to see additional business development. And the process is 
slow and it's confounded, it's inconsistent, and the delays are 
actually potentially costing other potential businesses to come 
in, because they're going to go to where they can address their 
business potential in a more timely fashion. So----
    Mr. Gibbons. Has the Government told you why they are 
delayed, why they are dragging their feet on this?
    Ms. Carpenter. Well, no. No one ever wants to admit why 
they are sort of hiccupping. From my viewpoint, looking at how 
the process works, is that this is not a typical, this is not 
something they're used to doing. So when you step out of a sort 
of format that they're used to, then you get into more of a 
slowed-down process--``I'm not really sure how to value this,'' 
you know, ``I'd better go about this very slowly.'' And the 
processes need to be modernized to meet today's growing 
communities' needs.
    So I don't--for me, it's not anything that's sort of 
prescribed coming out of the Government, it's just they're 
outside of their comfort zone. So it's not an area that they're 
used to operating in.
    Mr. Gibbons. Mr. Lee, do you have any experiences?
    Mr. Lee. Well, I think she said it very well. I go back to 
the passage of the Wilderness Act, which I came here 
afterwards, and the irony is you have a 1964 road pattern which 
set up the basis for zoning on public land. And I turn that 
around to having worked in these Eastern urban areas. Could the 
City of Tucson exist on a 1964 road pattern? Could they have 
foreseen the tremendous growth? My son lives in Tucson. And of 
course they couldn't. There has to be a flexibility in the 
system to allow for growth and change. And the idea I heard 
here sound great. I mean, wind is, if they've got enough 
elevation, it's an ideal project.
    I one time almost got fired at Interior for suggesting that 
we put a historic mine frame on a property that was going to be 
withdrawn. And they just went ballistic because nobody ever 
does that. It's either all open or all closed. And of course 
the land was withdrawn anyway, and there's no mine there. I 
think we need to take a look at--you know, try to bring the 
Federal Government, which is so archaically drawn into ``what 
we've always done,'' and work with the communities and, whether 
it's public, private land, come up with the best alternative.
    But that's not the directive. If you're public land, you're 
public land, and it's sort of park land. And if you're private 
land, then you're a Wal-Mart. And, you know, the future demands 
more.
    Mr. Gibbons. Mr. Harrington?
    Mr. Harrington. Well, Mr. Chairman, I've had a little bit 
of experience with the Forest Service and the BLM and that. You 
know, what I see is you've got a lot of really good people out 
there working hard to do their job. My experience has been 
you've got a lot of bureaucratic layers in there, and the age 
we're in right now is an age of liability. So as you deal with 
regulations and rules, interpretation of that down at the lower 
levels, sometimes it gets a little fuzzy on there.
    And I look at example we've got in our county of a small 
exploration company that's coming in and doing some drilling in 
there. And we haven't had much exploration going on in Montana 
in the last several years, for a variety of reasons. They want 
to do some winter drilling on there, and because of a concern 
that maybe there might be lynx--and this country has never had 
any lynx identified--they required this company just to stop 
drilling through the winter there. Again, this was 
interpretation at the lower levels of what that meant to 
potential lynx habitat. Obviously very frustrating for this 
small exploration company to go in there. They just put 
everything on hold for several months until the wintertime was 
over with.
    I think a lot of that is probably the interpretation of 
making sure we have clear-cut rules and regulations. The one 
I've come in contact with with BLM here recently, they're 
redoing the resource management plan in our area. And you start 
seeing these terms, like ``wildland-urban interface,'' and you 
ask what exactly is that? And you try to define that and you 
get a variety of different interpretations, depending on who 
you talk to. I think some of it needs to be more clear-cut 
guidance that comes from the top level down on what we're 
actually trying to accomplish.
    Mr. Gibbons. Some days it is frustrating for us to pass 
legislation, then to see the rules that implement the 
legislation created by the bureaucracy, which has a completely 
defeating purpose or change to the intent of the legislation. 
Only you are on the other end of that. You are on the receiving 
end of the frustration because you have to work through that 
process. And if it is not clear, you are absolutely correct. It 
causes for different approaches, different end results through 
people's variable interpretations of how the regulations are 
enabling, or not enabling, the legislative intent. I understand 
that.
    Mr. Arnold, have you had any experience dealing with the 
Government on this sustainable development? What has been that 
experience?
    Mr. Arnold. In a prior life I lived in Winnemucca for 18 
years, Winnemucca, Nevada, and I ran mines there. One of the 
mines I ran was the second-largest hardrock mine in the 
country. We were building a very large pit there, very large. 
It's going to backfill with water. It's going to be a nice 
lake, a really nice lake. It'll be the second-biggest manmade 
lake in Nevada. We know through modern geochemical techniques 
that the water quality in that lake is going to be exceptional. 
It's going to be a nice fishery, a nice facility.
    In closure, because the BLM has been mandated to protect 
the public health and safety, we must block off all access to 
that, reclaim the roads that are access to that nice lake, put 
a fence around it so that the public cannot possibly get to it.
    The head of environmental compliance for Winnemucca was my 
next-door neighbor. The past head of environmental compliance 
for Winnemucca lived on the other side of me. And if you got 
together with those guys over an adult beverage and said, you 
know, does this make any sense, they would always kind of smile 
and say, no, it doesn't. We really need to be taking advantage 
of this. We've got some nice facilities that you guys are 
putting together.
    A mine attracts wildlife, contrary to what people think. At 
one point in time I had a bighorn sheep that actually came out 
and lived in our pit. And we had to call the local wildlife 
official, Jim Jeffress, and he came out and trapped the sheep 
and pulled it out of there for us. But these areas end up being 
very, very good areas for post-mining land use for hunters and 
fishermen, but we're being blocked off. The local guys didn't 
see any sense in it, but there's mandates that come from 
Washington that they're forced to enforce.
    Mr. Gibbons. Perhaps that comes from a view of trying to 
look at Winnemucca, Nevada, from Washington, D.C.
    Mr. Arnold. Exactly.
    Mr. Gibbons. There is a lot you can't see from this far 
away, a lot you don't understand. And that is always the 
problem. We are finding a lot of misinterpretation. And I think 
that is, quite honestly in my opinion, what creates the 
friction between those people who are attempting to do 
something worthwhile, attempting to do the right thing, and the 
bureaucracy which says that it has to be done this way because 
we have no flexibility. Therefore the frictional rub between 
trying to do something which is creative, innovative, and in 
the best interest confronts directly with the opposition of 
having no flexibility, regulatory restrictions, and a lack of 
understanding on behalf of those people making decisions from 
the other side of the coin as to what we are trying to 
accomplish here.
    I think if we are going to have a viable mining industry in 
the future in this country, we need to have a working 
relationship both with the regulatory environment and the 
bureaucracy that regulates that, because there are some cases 
where there is abuse. But in some cases we need to have a 
working relationship that understands and works a little more 
flexibly with it. Because mining used to be the terminal end 
use of the land. And today we are finding out that mining is 
not the terminating end use of the property, but there are 
alternatives.
    And this lake, for example, that you are talking about at 
Winnemucca, Mr. Arnold, is the very same concept of the lake 
that Mr. Lee talks about, or the part in Maryland where it has 
a garden effect because of the removal of the material out of a 
pit for a quarry. Or even in Sparks, Nevada, where we had a 
sand and gravel pit which is now a marina, and a very nice 
marina at that. The city has done a wonderful job at creating a 
true attraction for people that I find is remarkably creative 
by a community that had what was otherwise a huge gravel pit 
right in the middle of their city. And now they have turned 
that around and made it an attractive park-like setting with a 
lake that people have really come to enjoy.
    I think we need to start looking at what can be the end use 
of these lands once mining has finished, and the investment 
that these companies have made should not be just summarily 
disregarded and requested to be removed, because there are 
valuable investments in this property, some of which can be 
creatively used for the future.
    Anyway, actually, I am the only one here, as you can tell. 
And we have kept you here an hour and a half for this hearing. 
I think we have set a very clear record for why sustainable use 
of land after the closure of a mine is an entity which we need 
to focus on. We need to review the regulatory environment. And 
each one of you, with your presence here today and your 
testimony, has added immeasurably to our understanding of why 
we need to modernize some of the laws and regulations that we 
have with the mining industry today.
    And as I said a minute ago, if we are to have a viable 
mining industry in the future, we have to deal with the post-
effects of mining, like any other issue. If you cannot solve 
the post-effects of mining, mining will not ultimately be an 
acceptable use of our public lands. So by having an acceptable 
post-mining use of public land, we will have less resistance to 
mining in the future, we will have greater opportunities for 
the public to once again enjoy land. In fact, we can improve, I 
think, both the future of mining and the future of the post-
reclamation utilization of the mining land. And to me, that is 
in the best interest of the public. It is in the best interest 
of the country to have a viable mining industry and a smart, 
sustainable end use of the infrastructure and the land after 
mining is completed.
    So I want to thank each and every one of you for your 
contribution to this Committee's understanding to supporting 
our record of where we need to go with mining and to really 
giving out, I think, a great deal of hope to an industry which 
is facing some rather difficult times for the future, of why 
they are moving out of this country because of the 
obstructionism of not only Government, but people who don't 
understand that we can have a viable end use for this mining 
land. And each one of you has added immeasurably to our 
understanding and to the knowledge base that this Committee is 
going to carry forward as it looks at how we do modernization 
of the mining law--how do we look at the NEPA process and end 
results. Because if we can improve what our mining industry has 
started, then I think we have improved the future of this 
country. We need a viable industry and we need to be able to 
supply the resources this country needs. And to me, this 
sustainable community post-mine closure is a win-win situation 
for everyone involved.
    And certainly, I think there ought to be a great deal of 
excitement both from the business, both from the resources, 
both--I should say not just ``both'' because I am going to add 
a third--from the environmental standpoint to the process.
    So with that long statement, I am going to again thank each 
and every one of you for your presence here today and for 
helping us, as I said, better understand this issue. And with 
that, this hearing is adjourned. Thank you very much.
    [Whereupon, at 11:27 a.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
